<html>
<title> - FOSTERING INNOVATION IN MATH AND SCIENCE EDUCATION</title>
<body><pre>[Senate Hearing 109-678]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-678
 
           FOSTERING INNOVATION IN MATH AND SCIENCE EDUCATION

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON TECHNOLOGY, INNOVATION, AND COMPETITIVENESS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
28-848                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

      SUBCOMMITTEE ON TECHNOLOGY, INNOVATION, AND COMPETITIVENESS

                     JOHN ENSIGN, Nevada, Chairman
TED STEVENS, Alaska                  JOHN F. KERRY, Massachusetts, 
CONRAD BURNS, Montana                    Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
JOHN E. SUNUNU, New Hampshire        BYRON L. DORGAN, North Dakota
JIM DeMINT, South Carolina           E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2006...................................     1
Statement of Senator Allen.......................................    34
Statement of Senator Ensign......................................     1
Statement of Senator Sununu......................................     3

                               Witnesses

Dugan, Paul, Superintendent, Washoe County School District.......    19
    Prepared statement...........................................    21
McCausland, Thomas N., President/CEO, Siemens Medical Solutions..    22
    Prepared statement...........................................    24
Miaoulis, Dr. Ioannis, President, Museum of Science; Director, 
  National Center for Technological Literacy.....................    26
    Prepared statement...........................................    29
Rankin, Mary Ann, Ph.D., Dean, College of Natural Sciences, 
  University of Texas at Austin..................................     5
    Prepared statement...........................................     7

                                Appendix

Burns, Hon. Conrad, U.S. Senator from Montana, prepared statement    43
Project Lead the Way (PLTW), prepared statement..................    44
Rockefeller IV, Hon. John D., U.S. Senator from West Virginia, 
  prepared statement.............................................    43
Scientific and Technical Intelligence Committee, National 
  Intelligence Council, executive summary........................    47


           FOSTERING INNOVATION IN MATH AND SCIENCE EDUCATION

                              ----------                              


                       WEDNESDAY, APRIL 26, 2006

                               U.S. Senate,
       Subcommittee on Technology, Innovation, and 
                                   Competitiveness,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. John Ensign, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Good morning. Welcome to the hearing on 
fostering innovation in math and science education.
    Over the past 2 years, we have seen an unprecedented amount 
of activity and interest in math and science education. First, 
the Council on Competitiveness unveiled the National Innovation 
Initiative. Following that, the National Academies released a 
report entitled, ``Rising Above the Gathering Storm.'' Each of 
these reports lists specific recommendations to Congress that 
are designed to increase the competitiveness of the United 
States in the areas of math and science education.
    These reports have elicited numerous legislative proposals. 
Senator Lieberman and I introduced the National Innovation Act. 
Senators Alexander, Bingaman, and others introduced three 
different bills that make up Protecting America's Competitive 
Edge, or PACE, Acts. President Bush unveiled his American 
Competitiveness Initiative earlier this year in his State of 
the Union Address.
    While we might differ in our approaches, all of us agree 
that we need to help better prepare our Nation's students in 
math and science education. This country has a longstanding 
history of being one of the most inventive and innovative 
countries in the world. We have also fostered competition and 
attracted scientists, engineers, and mathematicians from across 
the world. Today, however, I feel that we are losing that 
competitive edge.
    The purpose of today's hearing is to look at what is 
working in the fields of math and science education. Each of 
the witnesses here today is part of the solution to a vexing 
problem. The problem is, How do we get more students interested 
in math and science classes? And how do we make good math and 
science classes available to every student?
    When drafting the National Innovation Act, I was appalled 
to learn that less than one-third of the U.S. fourth- and 
eighth-graders perform at or above proficient in math. American 
15-year-olds ranked 24th out of 40 countries that participated 
in the program for international student assessment 
examination. That examination measured a student's application 
of mathematical concepts to real-world problems.
    It is no wonder that while China graduated approximately 
350,000 engineers, computer scientists, and information 
technologists with 4-year degrees in 2004, the United States 
graduated approximately 140,000 with 4-year degrees in these 
same fields. We need to do much better.
    The National Innovation Act does three things to help 
improve America's competitiveness. It increases research 
investment, increases science and technology talent, and it 
develops an innovation infrastructure. Today, I would like to 
focus on how the National Innovation Act increases science and 
technology talent. Specifically, this legislation would 
increase the number of graduate fellowships and graduate 
traineeships at the National Science Foundation. This would 
help students pursue graduate degrees in sciences, 
technologies, engineering, and mathematics. The National 
Innovation Act also encourages the development of professional 
science master's degree programs as a means of increasing the 
number of highly skilled graduates entering the science and 
technology work force. My legislation also enlarges the 
Science, Mathematics, Engineering, and Technology Talent 
Expansion program, commonly called the Tech Talent program, 
which provides funding to universities to increase the number 
of graduates with degrees in math and science.
    Finally, the legislation extends the Department of 
Defense's Science, Math, Research for Transformation, or the 
SMART scholarship program, which supports individuals pursuing 
doctoral and master's degrees in relevant fields.
    I believe that the Federal Government needs a four-pronged 
approach to improving STEM education and fostering innovation 
in math and science education.
    First, I believe that math- and science-related programs 
need to be housed and supported in agencies that have proven 
track records in providing effective math and science education 
programs, both for teachers and for students.
    Second, it is vital that we take stock of all current 
Federally funded programs as we move forward with comprehensive 
legislation.
    Third, it may be necessary to create some new Federal 
programs to support programs that have been proven effective in 
the field. Congress must ensure that we do not hamper these 
efforts, but enhance them.
    Finally, it is absolutely imperative that we include 
metrics, measurements of effectiveness, for current and new 
programs.
    The National Innovation Act is a great step toward meeting 
these goals. I am going to work with my colleagues on the 
Commerce and HELP Committees to come up with common sense 
solutions to these problems. In doing so, we hope to work with 
each of you here today and draw on your expertise. By working 
together, the Federal Government can help graduate more 
students in the STEM--Science, Technology, Engineering, and 
Math--fields.
    Today, we are pleased to have a distinguished panel of 
witnesses with experience from across the spectrum and who are 
on the front lines working with our students every day.
    Before the testimony begins, I would like to state, without 
objection, any of the Senators' full written statements will be 
made part of the record. Senator Sununu is here, and if you 
have an opening statement, I welcome it at this time.

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    I'm interested to hear from our witnesses today, and, in 
particular, those that are here to offer and provide a little 
bit of information about the work that they're doing and about 
the success that they have already seen.
    I have an education in science and engineering, which, 
miraculously enough, did not prove too great an obstacle to get 
elected to public office, or, conversely, maybe my failure to 
prove my worth in the private sector drove me to have to run 
for political office. But I'm here, nonetheless. And so, by way 
of education, background, interest, and experience, this is 
naturally a subject of great interest to me, and, about like 
any other subject, not one where I have significant opinions. 
But I am certainly willing to listen. My personal experience, 
both in my own education and in a number of siblings and close 
friends, classmates that have all gone on to technical 
educations and careers, is that you decide, as a student, that 
you're interested in these areas of math and science, you know, 
not when you're a junior in college, not even when you're 
applying to college, not even when you're a junior and senior 
in high school. You decide this is an area of interest that you 
find fun and interesting and engaging when you're in the fifth 
grade or sixth grade or seventh grade. And that interest is 
generated, by and large, by one thing, and that's good 
teachers.
    Certainly, family experience matters, as well. If we've got 
parents who are interested in their child's education and 
interested, in particular, in this area, and you have good 
teachers, that's when kids get interested. And it happens 
somewhere between fifth and eighth grade. And if they have that 
interest, they'll pursue it in high school. And then, when it 
comes time to make a choice about long-range education plans, 
they may select a career in math and science.
    There are limited things that we can do at the Federal 
level to really affect that process. Now, we could talk about 
what those might be--I think school districts setting real 
clear standards for curriculum and for achievement in these 
areas, and testing their students in these areas, the right 
curriculum, the right standards, and working to make sure that 
their teachers are accredited in these areas. That's very 
important. But, again, there are limited things that we can do 
at the Federal level to accentuate that process. We have a 
great vehicle for support, inspiration, and funding of 
scientific and technological advancement nationwide and 
worldwide here at the Federal level, and that's called the 
National Science Foundation. And while there's--Congress being 
what it is, we've made every effort possible to mess that up. 
It still works relatively well, because it's peer reviewed, and 
the bulk of the money goes to investment in the physical 
sciences and computational mathematics. And that's what it's 
intended to be for.
    A number of the legislative proposals out there, well 
intended, contemplate Balkanizing that funding stream even 
further. In fact, there's one legislative proposal that says, 
``You know, maybe this whole peer-review thing isn't a good 
idea. Let's set aside a percentage of the money for 
discretionary Congressional initiatives.'' Now, you know, I 
like to think that I'm relatively intelligent, but, in that 
regard, I'm intelligent enough to know that I can't make a 
better choice than a good panel of peer-review experts in the 
field of, you know, crystalline--crystal formation or ceramics 
or statistics or computational mathematics or cryptography. You 
know, I'm not going to make a better choice. So, we need to be 
very careful about undermining the things that work.
    I will also underscore the fact that, intentions being what 
they are, we've already made a great effort, a noble effort, to 
do what we can at the Federal level to provide recognition and 
even financial support for these endeavors. When it comes to 
scholarships, which are important and justifiable in these 
areas, we have the National Institutes of Health Undergraduate 
Scholarship Program, the Graduate Assistance in Areas of 
National Need, the U.S. Department of Energy's Office of Fossil 
Technology Scholarships, Academic Competitiveness, and National 
Science and Mathematics Axis to Retain Talent Scholarships, the 
SMART Grant Program Scholarships, the National Aeronautics and 
Space Administration Scholarships, the National Science 
Scholars, the Commerce, Science, and Technology Fellowships 
Program, the Ernest Hollings Scholarship on Ocean Atmospheric 
Science, Technology Research, and about at least a half dozen 
others, the point being not that any one of these programs do a 
good job, or don't do a good job.
    There's a pretty comprehensive litany of efforts to 
highlight the importance and the value of science and 
technology education. So, we should be mindful of what's 
already out there, identify whether it's working or not, and 
then begin our efforts by trying to make the best use of that 
which already exists.
    With regard to simple recognition, such as, awards and 
honors, again it is very important to highlight at a national 
level, again, the value of science, technology, and 
engineering. This sounds very self-serving to say how important 
engineers are to America, having studied to be one, and I had 
worked as one, at one time. But we have a National Medal of 
Technology, a National Medal of Science, Malcolm Baldrige 
National Quality Award, the Presidential Award for Excellence 
in Science, Mathematics, and Engineering Mentoring, the 
Presidential Early Career Award for Scientists and Engineers, 
the Presidential Awards for Excellence in Mathematics and 
Science Teaching, the Green Chemistry Award, Congressional 
Space Medal of Honor, and about 20 others, all relating to 
fields of science, technology, and mathematics.
    My point is not to suggest that these are good programs or 
bad programs, effective or not effective, but the legislation 
that's been written and introduced, it--I think one of the 
bills that's received the most exposure creates at least 21 new 
programs, without really looking at any of those that I just 
mentioned to determine how they might be better funded, how 
they might be better structured, how we might do a better job 
of communicating the existence of these programs.
    So, I appreciate the value of having this discussion, but I 
encourage people to sort of exercise caution, not undermine and 
weaken those things that we have. I am advocating to double the 
funding in the National Science Foundation, along the lines 
that we have done so for the National Institutes of Health for 
5, 6, 7 years, and it seems to be an idea that's caught on. 
That's good. And I'm certainly not the only person that had 
been encouraging such funding.
    But I think we want to make sure we stay focused, and we 
make sure we understand what the Federal Government can do, and 
can do best, what academic institutions, higher learning, 
colleges, universities can do, and do best, what great 
nonprofits, like the Boston Museum of Science can do, what they 
do best, and what superintendents and teachers and parents, at 
the local level, can do, and do best.
    Thank you, Mr. Chairman.
    Senator Ensign. Thank you.
    Now we will hear from our panel of witnesses. But before we 
do, I would like to make just one comment about having an 
engineer in the Senate. I could make a joke about it, but it 
has actually been very valuable to have the diversity that we 
do have, and you can see this by the statement of my colleague 
today.
    Now I want to start with Dr. Mary Ann Rankin. She is going 
to tell us about her experiences with the UTeach Program at the 
University of Texas at Austin. I have heard her testify before, 
and we would like to explore about UTeach today, because I 
think it is a very exciting program.
    Dr. Rankin before you begin, if all witnesses could keep 
their testimony to around 5 minutes I would appreciate it. We 
are not going to put you on the clock or anything, but around 5 
minutes or so, so we can have some good time for discussion 
afterwards, that would be great. OK?
    Thank you.

 STATEMENT OF MARY ANN RANKIN, Ph.D., DEAN, COLLEGE OF NATURAL 
            SCIENCES, UNIVERSITY OF TEXAS AT AUSTIN

    Dr. Rankin. Thank you, Senator. I appreciate this 
opportunity to speak to you today about our math and science 
teacher preparation program.
    We believe that strong teachers are a key element in 
improving America's competitiveness, and they are in 
frighteningly short supply. The prospects are frightening for 
the future, as well.
    In 1997, we initiated a highly successful teacher 
preparation program at the University of Texas for math and 
science majors, called UTeach. Research-one universities have 
not traditionally assumed much responsibility for teacher 
training. And, in fact, before we established UTeach, UT Austin 
had very few science or math majors pursuing certification. We 
had a student body at that time of about 8300 majors. Four 
science majors, and 19 math majors the year before, had 
achieved certification and most of those didn't actually go on 
to teach.
    With the UTeach program, we've now doubled the number of 
math majors and increased, by six times, the number of science 
majors being certified. Enrollment in the program is at 470 
this semester. This year's 74 graduates will bring the total 
number of grads to about 350. Approximately 88 percent of those 
are teaching or searching for teaching positions; 75 percent of 
those who graduated 5 years ago or more are still teaching.
    The quality of our students is very high. Prior to 
initiation of the UTeach Program most of the students receiving 
certification pursued it as a last resort after not achieving 
their primary goals. Now students are choosing this career path 
as their first choice. As a group, they have high SAT scores, 
higher grades, and much better retention, compared with other 
students in the college. Approximately a quarter of them are 
traditionally under-represented minorities, which is about 
twice the college average. They emerge dedicated and excited at 
graduation, with excellent content knowledge and considerable 
experience in the classroom. And I'll tell you a little bit 
more about that.
    A number of our students have assumed leadership positions 
in their schools, such as department chair, director of 
curriculum, AP teachers, even as early as their second or third 
year of teaching. The National Research Council in the 
Gathering Storm report, and prior to that, the U.S. Department 
of Education, have cited UTeach as a model program. A number of 
other institutions in Texas, Louisiana, Colorado, and now in 
California, have begun using UTeach as a model and initiating 
similar programs. In fact, the California program will be 
statewide and the largest of its kind in the Nation. We were 
even mentioned in TIME Magazine recently, so that was exciting.
    The key elements of UTeach that we believe are most 
responsible for its success are, first of all, we employ 
outstanding experienced high-school and middle-school teachers 
as instructors, advisors, and field supervisors, along with 
regular science and education faculty. They are the equivalent 
of faculty in this situation. In partnership with the College 
of Education, we have replaced the traditional general 
education courses with pedagogy courses focused on how to teach 
math and sciences that are intermingled with the discipline 
courses in the program. So, we've thrown out all of the old 
education courses, and we now have these new, very much more 
exciting courses, which include field experiences at every 
level and follow national and state guidelines for math and 
science educator training.
    We aggressively recruit science and math majors to the 
program, including paying the tuition for the first two 
courses, which are field-teaching experiences done under 
outstanding classroom teachers. These early field experiences 
allow students to try teaching, and are a very effective draw 
into the program.
    The ability to complete the program with a full major in 
math or science with teacher certification within 4 years is 
also important. We've developed a streamlined version for post-
baccalaureates that can be completed in 1 year.
    We offer internships for students who need to work, doing 
jobs that are relevant to the teaching profession and that 
reinforce their experience and commitment to teaching. And this 
is also very important.
    We have some scholarship support based on good performance 
in the program. We have induction support--and this is really 
key--for graduates, once they are out and teaching, including 
assistance with lesson plans, curriculum development, advice on 
classroom management and other sorts of coaching. And, finally, 
we now have a UTeach master's degree in science and math 
education that provides the possibility of an advanced degree, 
if they wish to pursue it.
    Thank you very much for your kind attention, and I'd be 
very happy to answer questions at the end.
    [The prepared statement of Dr. Rankin follows:]

Prepared Statement of Mary Ann Rankin, Ph.D., Dean, College of Natural 
                Sciences, University of Texas at Austin

    Thank you for this opportunity to speak to you today about UTeach, 
an innovative and very successful teacher preparation program for Math 
and Science majors.
    In 1997 we initiated a highly successful teacher preparation 
program for math and science majors called UTeach. Research 1 
universities have not traditionally assumed much responsibility for 
teacher training, and indeed prior to establishment of the UTeach 
program, UT Austin had very few science or math majors pursuing 
certification: 4 science; 19 math in 1996 from a body of about 8,300 
majors. It was usually a fall back or last resort for students who did 
not achieve their primary goal such as admission to medical school, or 
graduate school, and many who were certified did not actually go on to 
teach.
    We wanted to create a program that would attract large numbers of 
strong math and science majors to teaching, and prepare them for 
success; we believe we have achieved that goal. Since the inception of 
the UTeach program we have doubled the number of math majors and 
increased by 5-6 times the number of science majors being certified. 
Enrollment is at 470 students this year and this year's 74 graduates 
will bring the total number of grads to about 350. Approximately 89 
percent are teaching, planning to teach, or actively searching for 
teaching positions. Seventy-five percent of those who graduated in 2001 
or before are still teaching.
    The quality of UTeach students is very high. As a group they have 
higher SAT scores, and higher grades in comparison to their College of 
Natural Sciences (CNS) undergraduate peer group. Approximately one-
quarter of UTeach students are traditionally underrepresented 
minorities who we believe will be strong, inspiring role models for the 
minority students in their own classrooms--this is substantially more 
than in the overall UT undergraduate population.
    These strong students are choosing this career path as a first 
choice; they are dedicated and excited about teaching and they emerge 
at graduation with excellent content knowledge and considerable 
experience in classroom situations. A number of our students have 
assumed leadership positions in their schools such as department 
chairman, director of curriculum, or AP teacher, even as early as their 
second or third year of teaching.
    The National Research Council \1\ and the U.S. Department of 
Education \2\ have cited UTeach as a model program. Many other 
institutions in Texas, Louisiana, Colorado, and elsewhere are exploring 
ways to create similar programs. California has just begun an 
initiative based on the UTeach model that will be the largest of its 
kind in the Nation.
---------------------------------------------------------------------------
    \1\ Educating Teachers of Science, Mathematics, and Technology: New 
Practices for the New Millennium, National Academy of Sciences Press, 
(2000); Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future, National Academy of Sciences 
Press (2005).
    \2\ www.ed.gov/news/speeches/2004/03/03182004.html; 
www.uteach.utexas.edu/about/recognition/Title11Report03.pdf.
---------------------------------------------------------------------------
    The key elements of UTeach program that we believe are responsible 
for its success are:

        1. Adherence to national and state guidelines for math and 
        science education.
        2. Employment of outstanding, experienced high school and 
        middle school teachers as instructors, advisors and field 
        supervisors along with regular Science and Education faculty.
        3. New pedagogy classes to replace the traditional general 
        education courses focused on how to teach math and science, 
        intermingled in the curriculum with discipline courses.
        4. Inclusion of field experiences in the pedagogy courses at 
        every level.
        5. Aggressive recruitment of science and math majors to 
        teaching. This involves:

      <bullet>  Advertising the program to new and continuing math and 
        science students.

      <bullet>  Providing monetary incentives to try the program.

            -- UTeach pays the tuition for the first two courses. These 
        focus on field teaching experiences. Students are carefully 
        prepared by our master teachers to teach math/science lessons 
        in public school classrooms in pairs 4 times a semester, first 
        in elementary and then in middle school classrooms under 
        outstanding classroom teachers. This allows them to try 
        teaching and in many cases is a very effective draw into the 
        program.

      <bullet>  Internships for students who need to work, doing jobs 
        that are relevant to the teaching profession--working in 
        museums, AISD classrooms, informal science clubs, etc. These 
        internships help both the students and the organizations for 
        which the students work and reinforce their experience and 
        commitment to teaching.

      <bullet>  Scholarships based on good performance in the program, 
        especially for upper-division students.

        6. Ability to complete the full program with a major in math or 
        science and teacher certification in four years. We have 
        developed a streamlined version of the UTeach curriculum for 
        Post-baccalaureates that can be completed in one year.
        7. Induction support for graduates. Many new teachers leave the 
        profession within the first few years of service. We believe 
        that a substantial support system, including assistance with 
        lesson plans, curriculum and advice on classroom management can 
        make the difference between first years that are rewarding or 
        intolerable and we have a program in place to supply this kind 
        of support.
    We have also developed summer coursework leading to a UTeach 
Masters degree in Science and Mathematics Education. This provides the 
possibility of an advanced degree as part of the long-term support we 
provide to our UTeach students.
    Thank you for your kind attention. I'd be happy to answer 
questions.
Features of UTeach Success
  <bullet> New, highly relevant pedagogy courses focused on teaching 
        math and science

  <bullet> Early, intensive and continuing field experiences

  <bullet> The guidance and inspiration provided by master and mentor 
        teachers

  <bullet> The aggressive recruitment of science majors by invitation 
        to take the two initial UTeach courses for free

  <bullet> Paid internships that offer opportunities for community 
        outreach and informal science teaching that reinforce teaching 
        commitment

  <bullet> Compact degree plans that allow most students to graduate in 
        four years having completed both their content courses and the 
        requirements for teacher certification

  <bullet> An accelerated program for post-baccalaureate students that 
        gets them into the classroom quickly but prepares them well

  <bullet> A technology-rich curriculum that emphasizes the use of new 
        educational tools in instruction

  <bullet> A research experience that can help transfer the thrill of 
        new discovery to the public school classroom

  <bullet> Mentoring of new teachers and providing a path to an 
        advanced degree
                                 ______
                                 
  UTeach: A National Model for Teacher Preparation in Math and Science
    The UTeach program was developed at The University of Texas at 
Austin to help address the disturbing shortage of qualified math and 
science teachers that exists in Texas and beyond. UTeach graduates are 
mathematics and science majors (not education majors). They are strong 
students and they are becoming teachers in large numbers.
    Prior to the development of UTeach the College of Natural Sciences 
at UT Austin was producing very few graduates certified to teach high 
school math or science. In establishing UTeach we hoped to create a 
program that would attract a large number of strong students to this 
career path as a first choice and that would train them to be 
outstanding, successful teachers.
Selected Awards for UTeach Graduates
2006
  <bullet> Elizabeth Abernathy (certified, Spring 2003) is selected as 
        the Teacher of the Year at Kealing Middle School

  <bullet> Katie Arrington (graduated May 2001, currently in the UTeach 
        Master's Program) is selected as Math Curriculum and 
        Instructional Specialist in Round Rock ISD

  <bullet> Geoff Mathews (graduated Fall 2000) is selected as 
        Technology Specialist in Round Rock ISD.

2005
  <bullet> Michael Degraff (Graduated May 2005, currently in the UTeach 
        Master's Program), teaching at Bowie High School in Austin ISD, 
        is selected as Mathematics Chair Honored Graduate by the UT 
        Mathematics Department

  <bullet> Dan Powderly (Graduated Spring 2003) is named Teacher of the 
        Year at Castleberry High School in Forth Worth.

2004
  <bullet> David Villalobos (graduated Spring 2001) is selected as 
        Travis HS Teacher of the Year.

2003
  <bullet> Chris Vande Sande Mihealsick (Graduated Spring 2002) is 
        selected as Teacher of Promise for Crockett High School in 
        Austin

    Our original aims have been met. From a pilot project with 28 
students in the fall of 1997 UTeach has now matured to a high-profile, 
well-respected program with an enrollment of over 400 students/year. 
Nearly 300 students have graduated and nearly 89 percent are teaching, 
planning to teach, or actively searching for teaching positions. Over 
75 percent of the graduates who began teaching in the Fall of 2001 or 
before are still teaching.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Beyond its ability to attract top students into math and science 
education, the success of UTeach can be measured by its increasing 
stature as a model program for teacher preparation in which colleges of 
science and colleges of education work together with public schools. On 
the UT Austin campus, the College of Liberal Arts has implemented its 
own version of UTeach. The UT System has declared UTeach to be a part 
of the Every Child Every Advantage initiative, \1\ and the National 
Research Council \2\ and the U.S. Department of Education \3\ have 
cited it as a model program. Texas A&M has implemented a program 
similar to UTeach after several discussions with us. Many other 
institutions in Louisiana, Colorado, and elsewhere are exploring ways 
to create similar programs. Indeed, to bolster its long-term economic 
prospects, which are largely dependent on the availability of a work 
force with science and math skills, California has embarked upon an 
initiative to improve teacher preparation and increase the number of 
certified math and science teachers graduating from its public 
universities. \4\ The reform is based upon the UTeach model developed 
at UT Austin and is statewide in scope, with the full backing of the 
governor. This is an effort to quadruple California's annual production 
of credentialed science and mathematics teachers, from 250 per year to 
1,000 per year by 2010. This initiative is the largest of its kind in 
the Nation and although it has just begun, it is an example of the 
level of commitment that will be necessary to solve the teacher 
shortage problem.
---------------------------------------------------------------------------
    \1\ www.utsystem.edu/EveryChild/K16PrgDes-Initiative1.html.
    \2\ Educating Teachers of Science, Mathematics, and Technology: New 
Practices for the New Millennium, National Academy of Sciences Press, 
(2000); Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future, National Academy of Sciences 
Press (2005).
    \3\ www.ed.gov/news/speeches/2004/03/03182004.html; 
www.uteach.utexas.edu/about/recognition/Title11Report03.pdf.
    \4\ http://www.universityofcalifornia.edu/academics/1000teachers/.
---------------------------------------------------------------------------
    The following characteristics of UTeach have proven to be extremely 
important in attracting, retaining and successfully preparing large 
numbers of outstanding math and science majors for the teaching 
profession:

  <bullet> Experienced, outstanding former public school math and 
        science teachers (Master Teachers) \5\ have been hired by the 
        College of Natural Sciences as non-tenure-track faculty (at 
        this time we have 8 on staff), paid from the instructional 
        budget to supervise field experiences and teach certain 
        associated classes. They are tremendous role models for 
        apprentice teachers; being knowledgeable about what new 
        teachers really face and need, they supply real life 
        experience, guidance, and inspiration. They have been essential 
        in providing connections with Austin school district teachers 
        and administrators. They model excellent teaching practice for 
        the UTeach students and the UT Austin tenure-track faculty.
---------------------------------------------------------------------------
    \5\ A Master Teacher is an individual with at least 3 years public 
school teaching experience whom has put into practice the instructional 
strategies on which we will be evaluating UTeach students. Master 
Teachers are tremendous examples and guides, they are knowledgeable 
about what new teachers really face and need, and they are 
indispensable in providing connections with local school district 
teachers and administrators.

  <bullet> Early positive teaching experience gets students interested 
        in the program. In their first program semester, UTeach 
        students have carefully supervised field experiences in public 
        school classrooms using research-based instructional materials 
        that give them successful but realistic teaching experiences, 
        and let them judge whether teaching is a good personal choice. 
        The first two UTeach courses are field experiences in Austin 
        elementary and middle school classrooms guided by inspiring, 
        veteran teachers. This experience typically creates 
        satisfaction and a commitment to teaching in participating 
        students. The introductory courses are offered at no cost to 
        the students. Although this is not a great savings, it seems to 
---------------------------------------------------------------------------
        be important in convincing students to participate.

  <bullet> Innovative new professional development courses have 
        entirely replaced the old education curriculum. The new courses 
        focus on new theories of learning and on how to teach science 
        or math effectively to diverse learners. They combine content 
        material and pedagogy, are integrated with science and math 
        courses, and emphasize the connections between the sciences and 
        between mathematics and the sciences. Students acquire 
        expertise with instructional technology through experiences 
        woven throughout the pedagogy courses and learn how to use 
        technology effectively in teaching. UTeach instruction models 
        teaching practices expected of its graduates, emphasizing the 
        use of inquiry and technology to engage students more deeply in 
        learning mathematics and science. There are no generic 
        education classes.

  <bullet> UTeach was designed in consultation with a group of 
        outstanding high school teachers and the State Board for 
        Educator Certification, according to new state guidelines for 
        teacher certification, and new national and state standards for 
        K-12 education in math and science.

  <bullet> All students in the College of Natural Sciences are 
        recruited to join UTeach. We invite the whole freshman class to 
        participate; letters of invitations go to new students before 
        summer orientation followed by a presentation during 
        orientation and additional invitations via mailings each year. 
        Students also hear about the program through presentations to 
        students groups, posters, and newspaper and television reports.

  <bullet> Field experiences in AISD high school or middle school 
        classrooms continue as part of the pedagogy courses under 
        strong mentor classroom teachers, and with guidance from the 
        UTeach master teachers. This further increases the positive 
        reinforcement that good teaching experience provides and gives 
        valuable practice in teaching. Since nothing enhances learning 
        of a subject more effectively than teaching it, the field-
        oriented pedagogy courses reinforce mastery of the discipline. 
        Every student receives detailed written commentary on his or 
        her teaching from cooperating teachers, and whenever possible 
        from course instructors and Master Teachers. Lessons may be 
        video taped to provide opportunities for further analysis and 
        reflection. All cooperating public school teachers who mentor 
        UTeach students are paid for their efforts. All lessons taught 
        by UTeach students in the field are based upon carefully 
        prepared lesson plans that are available for review by course 
        instructors, Master Teachers, and cooperating teachers prior to 
        delivery.

  <bullet> Student teaching is the final field experience and it is 
        overseen by master teachers through the college of Natural 
        Sciences. Mentoring and help, either online or in person, 
        continues even after students graduate and begin teaching. All 
        UTeach students complete a portfolio that documents their 
        accomplishments according to the state standards and additional 
        UTeach program requirements. Final evaluation of teaching 
        proficiency is done by trained observers, based on the 
        candidate's classroom performance.

  <bullet> UTeach is a 4-year program. Students can finish in 4 years 
        with certification, having completed a strong degree program in 
        mathematics or science with student teaching. Therefore 
        students can obtain teaching certification without expending 
        money or time beyond a normal undergraduate degree.

  <bullet> UTeach degree plans are available for all teaching 
        certifications grades 4-12 involving science, mathematics, and 
        computer science. They are constructed with attention to state 
        and national standards for teacher preparation in each 
        discipline, including both process skills and content items. 
        All the competencies of teachers required by the state, and 
        assessed by the portfolio and final observation are covered 
        during the UTeach course sequence. We also allow professionals 
        to change careers and become teachers in an accelerated program 
        that strikes the right balance between getting them into the 
        classroom quickly and preparing them well enough so that they 
        stay.

  <bullet> All UTeach students have a research experience to expose 
        them to the challenges of open inquiry and technical 
        accomplishment that characterize investigations in science and 
        mathematics and to teach them how to facilitate such 
        experiences for their own students.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  <bullet> Internships and scholarships are available for students who 
        need them. Internships are funded from private donations 
        solicited by the college; they provide financial help in an 
        educational setting, augment student training and field 
        experiences, and maintain commitment. 60-90 students per 
        semester work in nonprofit educational settings. Tasks range 
        from mentoring children in math and science outreach activities 
        or assisting in Austin public school classrooms, to working in 
        museums or preparing educational software.

  <bullet> UTeach is a partnership between Colleges of Education and 
        Natural Sciences (although the students are all Natural 
        Sciences majors). This may not be essential but has been an 
        important element of success at UT Austin.

  <bullet> The fact that this program developed at a Research 1 
        University means that very strong math and science students are 
        involved in the program and we are able to infuse the program 
        with an understanding of research and analysis as the 
        foundations of science. The program could be replicated at non-
        R-1 universities and colleges, but a less well-prepared student 
        body or faculty might mandate some enrichment activities in the 
        discipline courses in order to have the level of discipline 
        preparation that is characteristic of UTeach students.

    Another critical concern is support for our UTeach graduates and 
other novice science and math teachers. Many new teachers leave the 
profession within their first two years of service. We believe that a 
substantial support system, including assistance with lesson plans, 
curriculum and advice on classroom management can make the difference 
between first years that are rewarding or intolerable. To address this 
difficult problem we have developed, with support from the Michael and 
Susan Dell Foundation, a scalable, sustainable support system for 
novice math and science teachers. It involves on-site visits by 
experienced mentor teachers combined with 24-7 online help and on-
demand Saturday workshops. We are also developing summer coursework 
leading to a Master of Arts in Science and Mathematics Education. We 
have established a graduate-level program of professional development 
that will lead to a UTeach Master of Arts in Science and Mathematics 
Education. This provides the context of an advanced degree path for our 
new-teacher mentoring program and will hopefully be an added incentive 
for our novice teachers to continue teaching. It will also provide a 
rigorous, practical, high-profile path to a master's degree for in-
service teachers across Texas. We believe the mentoring-to-masters 
continuum will enable participating teachers to develop from novices to 
seasoned professionals, and will provide more established teachers with 
practical opportunities for real professional renewal. For Texas this 
will mean more and stronger teacher-leaders in mathematics and science 
throughout the state.
    Funding for the program comes primarily through university 
resources. About $1.5 million/year pays the normal costs of University 
instruction. However, some aspects of the program such as the 
internships, tuition for the first two courses, and the induction 
support for new teachers require private funds, and many private 
foundations and individuals have provided support since 1997. We are 
working to establish an endowment to permanently support these kinds of 
expenses and have raised over $7 million towards a goal of $15 million. 
The income from this endowment as well as additional one-time funds 
from foundations and individuals augments The University of Texas 
support for the program.
Replication of UTeach
    The time has come to implement the UTeach model across the U.S. At 
UT Austin, where UTeach was pioneered, the number of secondary science 
and math teachers certified per year has increased dramatically since 
inception of the program. Now is the time for science, math and 
education faculty and administrators at other research universities to 
develop the same level of involvement in teacher preparation that has 
made UTeach a success.
    The improvement of teacher preparation calls for programs that are 
effective, and based upon experience. Effectiveness needs to be valued 
more highly than novelty in this situation, and cooperation between 
institutions valued more highly than competition. Thus we recommend an 
alternative to the traditional merit review process.
    A program aiming to affect most of the country's large public 
research universities could proceed in phases. A first phase might be 
to identify universities that already have the capacity to prepare many 
secondary mathematics and science teachers, and whose programs are 
largely consistent with the provisions outlined above. These 
universities would complete the process of developing model programs, 
and develop the capacity to assist other universities to do the same. 
UT Austin would welcome the opportunity to share the strategies used to 
develop UTeach during this phase, and would be glad to improve UTeach 
through interactions with other universities. In a second phase, each 
of the model programs in phase I would assist universities in 
geographic proximity to develop their own new programs. A third phase 
should be sufficient to affect public universities willing to 
participate, and private universities willing to offer competitive 
opportunities. Universities not interested in participation might be 
persuaded by the successes in the first two phases. Principal 
Investigators should be Deans of Arts and Sciences and co-PI's should 
be Deans of Education. Deans retain enough contact with faculty and 
departmental issues to ensure program implementation but are high 
enough in the administrative hierarchy of most universities to effect 
permanent change.
    We suggest that replication awards be for 6-8 years, focused on 
creation of teacher preparation programs on the UTeach model. Suggested 
requirements for a successful application appear in Appendix 1. 
Successful applicants would be reviewed annually. Continued funding for 
the full term would be tied to progress on specific benchmarks.
    Funds should be granted on a annual basis, subject to review and 
successful completion of benchmarks for enrolling and graduating 
students, creating courses and degree plans, and employing staff. Note 
that an important component of the program is the adoption of teacher 
preparation as a well-supported, permanent part of normal university 
operations. Therefore the grants should be set at a size designed to 
enable a new program to begin, without creating dependency that 
threatens the program when Federal funding terminates. Appropriate uses 
of grant funds include hiring Master Teachers, employing support staff, 
summer salary for participating faculty, or funds for student 
recruitment such as tuition remission. In any successful program, costs 
will rapidly exceed the amount of the grant. Deans, Provosts, and 
Presidents must therefore be aware of the commitment they are making as 
the process begins. Specific, explicit commitments on the part of the 
central administration should be required as a condition of 
participation in the form of an MOU. Potential for additional state 
support for a program should be part of this planning process.
    In endeavoring to establish UTeach-like programs at other 
institutions, we must take into account differences in administrative 
structure, mission, location, and student population. For example, one 
hallmark of UTeach is the excellence of the math/science knowledge that 
UT Austin graduates possess, as evidenced by their high scores on 
certification exams and their classroom performance. If students do not 
enjoy the same degree of preparation in their discipline as UT Austin 
College of Natural Sciences majors, it may by necessary to enrich the 
science and mathematics curriculum at their universities. This would 
require additional funding. We have developed a program at UT Austin 
focused on at risk students admitted under Texas House Bill 588 passed 
in the 75th legislature that granted automatic admittance to all high 
school graduates in the top 10 percent of their graduating class to any 
Texas public college or university. This program, called the Texas 
Interdisciplinary Plan, is described in Appendix 2. It emphasizes 
enrichment activities, mentoring, small class sizes and work on applied 
problems. It has been very successful at UT Austin, fits well with the 
UTeach curriculum, and could be adapted to augment basic math and 
science programs at other universities. Similarly, UT Austin is located 
in a large metropolitan area that affords many and varied classroom 
experiences for our students. This has been extremely important to the 
success of the UTeach program. Universities located in more rural 
settings will face special challenges with respect to providing field 
experiences for pre-service students, and we would need to find ways to 
address this issue to achieve maximum success in these regions.
    In summary, we seek to help create an initiative that will assist 
other universities to develop programs similar to UTeach that redefine 
how math and science teachers are trained. We suggest the creation of a 
Federal initiative with a goal of enabling institutions across the 
country to increase the number and quality of science and mathematics 
majors obtaining teacher certification with funding dependent upon 
incorporation of the elements of success that we have demonstrated in 
the UTeach program. Providing scholarships to students attending 
traditional programs is insufficient to produce the type of teachers 
needed to lead more students to careers in math and science. It is 
critical that any Federal initiative serious about transforming math/
science education in the United States include funding for institutions 
to develop teacher-training programs as innovative and effective as 
UTeach.
Profiles of UTeach Students and Graduates
    UTeach students come from many backgrounds and bring many different 
strengths to support their hopes of changing lives through teaching. 
These students and graduates will be glad to discuss their experiences 
at UT Austin, in UTeach, and as future and current teachers.
    Current UTeach Students:
    April Lisa Olivarez: April Lisa is a senior majoring in 
mathematics, who is student teaching this semester. She comes from 
south Texas and she and her brother were the first in her immediate 
family to attend college. While still in high school, she took courses 
at UT Pan American and South Texas College, along with math and 
computer science AP courses. She ranked 8th out of 614 students at 
Mission High School and came to UT Austin in the fall of 2002. She is 
an officer in the UTeach student organization and also works with a 
youth group five times each week as a mentor.
    Janice Trinidad: Janice graduated summa cum laude from Fordham 
University with a Bachelor of Science in Physics. She was admitted to 
the UTeach program for post-baccalaureates in the spring semester of 
2005. She is working as a teaching assistant while conducting research 
and taking coursework towards teacher certification in physics and 
math, the UTeach Master of Arts, and a Ph.D. in theoretical physics. 
She is a past and current recipient of the Noyce Scholarship, funded by 
the National Science Foundation.
    Jenna Saldana: A sophomore mathematics major, Jenna comes from 
Carrizo Springs, Texas, a predominately Hispanic town close to the 
U.S.-Mexican border. Jenna's dedication to quality education in our 
schools was demonstrated early in the program when she worked as a 
tutor/mentor in Dove Springs, an economically distressed neighborhood. 
Spanish is the first language for most of the students in that area. 
Jenna believes that her own fluency in Spanish is an asset in her work 
with these children. She is working towards certification in 
mathematics.
    Tyler Ham: Tyler is a senior majoring in mathematics. For the past 
3 years, he has also been a UTeach employee, working as the program's 
webmaster and data analyst. He graduated from Sam Houston High School 
in Arlington, Texas, second in his high school class of 373 students. 
His strong high school performance, taking AP classes in math and 
physics, English, chemistry, computer science, and history, has carried 
over into college course work. He is pursuing certification in 
mathematics.
    Alba Esparza: Alba is a junior majoring in mathematics at The 
University of Texas at Austin. Originally from El Paso, she graduated 
from Clint High School near the top of her class, taking AP courses in 
mathematics. Now in her second semester with UTeach, she is working 
towards the goal of becoming a middle or high school math teacher.
    Meagan Vickers: Meagan graduated second in a class of 99 students 
at Columbus High School in Columbus, Texas, a small town between 
Houston and San Antonio. Currently, Meagan is a senior and student 
teaching towards her certification in mathematics. Meagan has received 
University Honors every semester she has been with UT.

    UTeach graduates:

    Ditrell Binkley: Ditrell graduated from The University of Texas at 
Austin in 2004 with a degree in mathematics. Though graduating first in 
his high school class of 360 students, Ditrell hit a few rough patches 
on the road to graduation from UT. He left UTeach for a couple of 
semesters, but a conversation with one of our Master Teachers brought 
him back into the program. Ditrell began teaching for Paredes Middle 
School in 2004. Beginning in 2005, while still at Paredes, Ditrell 
began work on a UTeach Masters in Math Education. Ditrell is dedicated 
to educational reform and intends to become an administrator.
    Eliana Prada Owens: Eliana came to the U.S. from Venezuela in 2000. 
After taking courses at Austin Community College, she was accepted to 
The University of Texas at Austin, where she majored in mathematics. A 
native Spanish-speaker, Eliana was a self-motivated student, determined 
to excel academically. She graduated with honors in the fall of 2003. 
Her first teaching job was with Georgetown High School, and now she is 
teaching mathematics at Stony Point High School in Round Rock. Eliana 
has been very successful in implementing the kinds of inquiry-based 
learning techniques emphasized by the UTeach Program. She has been a 
student in the UTeach Masters in Education program at UT since the 
summer of 2004.
    Steven Sinski: After graduating from high school in San Antonio, 
Steven came to The University of Texas at Austin where he earned a 
bachelor's degree in Biology in the fall of 2005. He is working for the 
UTeach program and will be searching for a teaching position in the 
fall.
    Natalie Pickering Wieland: Originally from New Mexico, Natalie 
graduated in December 2005 with a Bachelor of Science in Chemistry and 
a perfect 4.0 GPA. She received the Noyce Scholarship, funded through 
the National Science Foundation, and is currently teaching at Round 
Rock High School.
    Jesse de la Huerta: Despite the difficulties of living as an 
English language learner while in the public schools of south Texas, 
Jesse graduated from Rivera High School in Brownsville ranked 7th in a 
class of 296 students. Jesse earned his undergraduate degree in 
mathematics from The University of Texas at Austin in the fall of 2004. 
Currently, he teaches in Austin, Texas, at the International High 
School, one of the magnet schools at Johnston High School, where he 
says he has found his calling.
    Katie Weber: Katie graduated from The University of Texas at Austin 
in 2004 with a Bachelor of Science in Biology. She received University 
Honors during each of her nine semesters as a Longhorn and was a 
speaker at Commencement. Currently, she's teaching at Henry Middle 
School in Leander, TX.
    David Vance Ballard: Vance came to UTeach through an unconventional 
route that included a stint as a deputy sheriff. He graduated from The 
University of Texas at Austin in 2005 with a bachelor's degree in 
Biology. He is now teaching for Del Valle High School in the Austin, 
Texas area.
                   Appendix I--Conditions for Awards
    To be awarded support, a university would need to develop a plan 
for the improvement of teacher preparation in science and mathematics 
with the following elements.

  <bullet> Description of current certification rate of science and 
        mathematics teachers.

  <bullet> Statement of goals for improvement with timeline describing 
        numbers of students enrolled in program and graduating.

  <bullet> Description of any existing university programs that 
        indicate university capacity to develop teacher certification 
        on the UTeach model.

  <bullet> Identification of an organizational unit within the College 
        of Arts and Sciences or College of Science that will adopt 
        teacher certification as its primary mission with signed 
        agreement from the central administration.

  <bullet> Identification of core faculty in departments of science and 
        mathematics who will champion teacher preparation in their 
        departments by teaching courses dedicated to preparing future 
        teachers, help create new degree plans, advise prospective 
        students within their major, and assist as needed with program 
        administration.*

  <bullet> Identification of core faculty in the College of Education 
        who will champion teacher preparation in their departments by 
        creating and teaching courses specific to the preparation of 
        secondary science, mathematics, and computer science teachers 
        and working closely with colleagues in Colleges of Arts and 
        Sciences. *
---------------------------------------------------------------------------
    * Letters from each faculty member, describing their interest and 
commitment to teacher preparation are required.

  <bullet> Description of the process to be used in locating classrooms 
        for field experiences. Supporting letters from school officials 
        able to coordinate relations between university and school 
---------------------------------------------------------------------------
        districts required.

  <bullet> Description of courses to be created over the funding 
        period, focusing on courses involving practical experience in 
        teaching. These must involve early field experience.

  <bullet> Description of degree plans existing or to be created 
        enabling students to graduate in 4 years with a major in 
        science, mathematics, or computer science and secondary 
        teaching certification. Programs must make possible graduation 
        in 4 years with certification. Post-baccalaureate programs may 
        also be included.

  <bullet> Description of schedule for hiring Master Teachers to 
        supervise field experiences. Programs must involve former 
        secondary teachers employed full time at the university.

  <bullet> Description of other program elements, such as teaching 
        portfolio, student support, opportunities for community 
        service, student organization.

  <bullet> Supporting letters from the Deans of Science and Education 
        and the President or Provost of the university are required. 
        These letters must describe the internal university resources 
        that will be made available as the project proceeds. These 
        include:

        --Identification of space to house the new unit
        --Identification of administrative support as program grows, 
        including administrative assistants and advisors
        --Identification of faculty and instructional lines to be 
        committed
        --Commitment to make fundraising from private sources for the 
        improvement of teacher preparation in science and mathematics a 
        high priority at the university.

 Appendix II--Enrichment Activities for Students With Poor Preparation 
for Advanced Mathematics or Science at UT Austin: the Emerging Scholars 
              Program and the Texas Interdisciplinary Plan
    When math-challenged Calculus students are accepted into the 
Emerging Scholars Program they feel special and proud. Other students 
respect, even envy them. They do extra and harder problems than the 
other students rather than easier and fewer, but they do them in teams 
with expert guidance from specially trained teaching assistants. 
Emerging Scholars register for an extra course in addition to the 
regular Calculus class. The extra class (which meets for six hours a 
week) is run by two teaching assistants who devise hard but practical 
problems for them and help the students learn how to work them. We have 
a great deal of data on this program because we have run it for nearly 
fifteen years. When they emerge from this program, ESP students are 
fully competitive with the other students. They move from getting D's 
and F's on their Calculus tests to A's and B's (see figure 1 below). An 
added benefit is that the numbers of minority math majors has risen 
steadily, because many of our ESP students have gone on to major in 
math! Without the Emerging Scholars Program many would not even have 
passed Calculus. Graduation rates are substantially higher among ESP 
students relative to other College of Natural Sciences students (see 
figure 2 below) even though this is only one course in their program. 
The increase in self confidence achieved with ESP has a profound 
impact. A similar approach works in other subjects such as Chemistry, 
but with modification of the enrichment material.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Texas Interdisciplinary Plan (TIP) is a broader enrichment 
program based upon the principles of success demonstrated by the 
Emerging Scholars Program. Like ESP, TIP has been developed to assist 
students who are likely to be at-risk in their transition to the 
University of Texas at Austin. \6\ TIP uses many of the same techniques 
as ESP, particularly the extra enrichment in small groups and cohort 
study teams. The average TIP class size is 50 or less instead of the 
College average of 100, and classes are taught by instructors 
especially selected for their outstanding teaching record. Each basic 
science course has one to two hours of supplemental instruction each 
week in addition to a TIP seminar (see below) with a format that is 
similar in structure to the Emerging Scholars model. Students are 
personally assisted by upper class peer mentors.
---------------------------------------------------------------------------
    \6\ TIP was created to serve a new population of students 
automatically admitted to The University under the top 10 percent rule. 
This statute, House Bill 588 passed in the 75th legislature, grants 
automatic admittance to all high school graduates in the top 10 percent 
of their graduating class to any Texas public college or university. 
TIP participants are drawn from this pool of students and further 
selected for their persistence in overcoming the challenges of low 
socioeconomic background. The invitation is specifically worded to 
emphasize the rigor and special opportunities of TIP, such that 
students regarded it as an honor to be invited to join. Nearly all TIP 
students were in the top 10 percent of their graduating class, close to 
half are among the first in their families to attend college, many are 
female, and more than 60 percent are of an underrepresented ethnic 
minority.
---------------------------------------------------------------------------
    Peer mentors are trained in time management, group dynamics, campus 
resources and services, and how to successfully assist students in 
their coursework. They offer academic and social guidance and support 
to TIP students. Selected for excellent academic performance, major, 
and leadership experience, peer mentors are upper division students who 
have themselves shown great capacity to overcome obstacles and succeed 
in our rigorous undergraduate curriculum. They work as academic tutors 
and assistants to TIP instructors and provide an introduction to UT 
social life through activities such as a bowling tournament in the 
Student Union, a tour of library services and resources, and a picnic 
lunch on one of the malls. Peer mentors are asked to reflect on their 
experiences and to continue their own training at weekly meetings with 
their supervisor. They play a critical role in the success of each of 
their TIP students.
    In addition to their regular classes, TIP students attend a three-
hour seminar/workshop each week at which students are coached in 
strategies for achievement in their course work, good study habits, and 
answers to specific questions. The TIP program coordinator in the 
Dean's Office also organizes special events as a part of this seminar 
to introduce TIP students to scientists at UT and in the broader 
community. This immediate link of the student experience to potential 
future career development is important. Researchers, physicians, 
medical school administrators and graduate students are among the 
speakers. Like the additional problems sessions that Emerging Scholars 
students take, the TIP seminar course is at the heart of the program. 
It is the innovative academic venue where core course issues of 
immediate concern to PENS students can be aired and addressed.
    In the fall of 2004 we added a TIP signature course for freshman: a 
Critical Thinking Seminar  that challenges students to examine their 
own thinking from the perspective of rigorous intellectual standards. 
The seminars are kept small (approximately twenty students) to ensure a 
high level of student-to-student interaction. The curriculum includes 
two innovative student projects, including a Nobel Prize term-project 
and peer presentations on current issues and events.
    The results of the 1999 pilot program were extremely good. TIP 
students had an average freshman GPA of 2.94, compared to 2.6 in the 
control group. They also had many fewer students on academic probation 
(6 percent compared to 23 percent). It is important to emphasize that 
these students took classes that were just as hard as the larger 
sections. In some cases, they took exactly the same exams, but they had 
extra attention and tutoring, extra work, and smaller classes. They 
scored better despite having an SAT a full 200 points below the college 
average. Success was achieved despite taking a more rigorous curriculum 
(three math and science course instead of the more common two) than the 
typical incoming CNS student. More recent results from academic year 
2004-05 are summarized below. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The TIP model provides some important lessons with respect to 
developing a successful UTeach program at universities and colleges 
where the student population is less well-prepared than students at UT 
Austin. We expect that an enrichment program with focus on mentoring, 
application of coursework to workplace settings (this is a natural 
consequence of the field experience that is a part of many of the 
UTeach pedagogy courses), small class size and enrichment activities 
will be necessary and effective in producing teachers who are extremely 
well-prepared in their discipline.

    Senator Ensign. Thank you, Dr. Rankin. It is great to hear 
some of the things that you're doing down at the University of 
Texas at Austin.
    Our next witness will be Mr. Paul Dugan, Superintendent of 
Washoe County School District. He is new in his position. I had 
a great meeting with Mr. Dugan in Reno, and I am very excited 
to hear about what you are doing in Reno, Nevada, Washoe County 
School District.

 STATEMENT OF PAUL DUGAN, SUPERINTENDENT, WASHOE COUNTY SCHOOL 
                            DISTRICT

    Mr. Dugan. Good morning. As you mentioned, my name is Paul 
Dugan, and I'm the superintendent for Washoe County School 
District. Our school district serves the Reno/Sparks area of 
northern Nevada and has an enrollment of approximately 62,000 
students, with a 42-percent minority population, of which 30 
percent are Hispanic/Latino. I have been fortunate to be a part 
of this school district for the past 23 years, serving as a 
teacher, counselor, school administrator, and, most recently, 
completing my second year as superintendent. It certainly is a 
pleasure and an honor to be here today.
    In December of 2004, our board of trustees took what we 
considered a bold step and enacted a policy we call the Gateway 
Curriculum. This new policy requires that, effective with the 
entering freshman class of 2006, all students will be 
automatically enrolled in 4 years of math, 3 years of science, 
and will be scheduled for a full courseload of six subjects 
their senior year. Currently, students are only required to 
take 3 years of math, 2 years of science, and four courses 
their senior year.
    The school board took this step for five compelling 
reasons:
    First, research has shown, particularly the work of the 
Education Trust, that to have any chance of success in the 
world of work or in post-secondary education, high school 
students must regularly engage in rigorous and intellectually 
challenging work. We believe that high school should not be a 
gatekeeper sorting students into unequal paths, but, rather, it 
should serve to well prepare all students for wherever their 
chosen career paths lead. High schools should be a gateway to 
success for all.
    Second, the achievement gap for high-poverty and minority 
students must close. Traditionally, and sadly, these students 
are too often placed in our least challenging classes; and, 
thus, may face economic lifetimes of minimum wage earnings. 
Requiring a rigorous curriculum for all students will have the 
potentially greatest impact on our poor and minority students.
    Third, the Gateway Curriculum is not a wholesale attempt to 
send all students to 4-year universities; however, we firmly 
believe that all students must be prepared for, and have access 
to, some form of post-secondary education, be it vocational 
training, military experience, trade school, community college, 
or university studies. A high school education is not enough 
anymore if our students are to compete locally, nationally, and 
globally.
    Fourth, too many of our graduates are required to take 
remedial-level college coursework because they have not been 
properly prepared for post-secondary studies. Our own research 
clearly demonstrates that completing a fourth year of math in 
high school, including second-year algebra, eliminates this 
need for remediation.
    I need to emphasize that this fourth year of math need not 
be the traditional trigonometry or calculus. A variety of 
rigorous fourth-year courses, including math related to the 
skilled trades or the business world, are currently under 
development.
    Finally, thanks to the American Diploma Project, it is now 
well documented that the demands of the workplace and the 
requirements for post-secondary education have converged. The 
paradigm has shifted. All students need both post-secondary 
education and a job. It is not an either/or situation. All 
students need first- and second-year algebra, geometry, 
statistics, data skills, and science. All students need strong 
oral and written communications skills, as well as analytical 
thinking and research capabilities. All students will clearly 
benefit from additional math and science courses.
    As the Washoe County School District prepares its first 
group of students to take part in this new curriculum, it will 
be critical that both thoughtful course development and well-
designed student support be adequately addressed.
    Furthermore, we understand very well that this is not 
merely a high school policy, but, rather, a K-12 policy that 
demands that those teaching at the elementary and middle school 
levels do all that is necessary to prepare their students for 
these new curriculum challenges. If we adequately address these 
issues, along with meaningful teacher professional development 
and parental support, we will have come a long way in ensuring 
success for our students, our school district, and the 
community we serve.
    Thank you very much.
    [The prepared statement of Mr. Dugan follows:]

Prepared Statement of Paul Dugan, Superintendent, Washoe County School 
                                District
    Good morning--My name is Paul Dugan and I am the Superintendent of 
the Washoe County School District. Our school district, serving the 
Reno/Sparks area of Northern Nevada, has an enrollment of approximately 
62,000 students with a 42 percent minority population, of which 30 
percent are Hispanic. I have been fortunate to be a part of this school 
district for the past 23 years serving as a teacher, counselor, and 
school administrator, and most recently, I am completing my second year 
as Superintendent. It certainly is a pleasure and an honor to be here 
today.
    In December of 2004, our Board of Trustees took a bold step and 
enacted a policy we call the Gateway Curriculum. This new policy 
requires that effective with the entering freshman class of 2006 all 
students will be automatically enrolled in 4 years of math and 3 years 
of science and will be scheduled for a full course load of six subjects 
their senior year. Currently, students are only required to take 3 
years of math and 2 years of science and four courses their senior 
year.
    The School Board took this step for several compelling reasons:

        1. Research has shown--particularly the work of the Education 
        Trust--that to have any chance of success in the world of work 
        or in post-secondary education, high school students must 
        regularly engage in rigorous and intellectually challenging 
        work. We believe that high school should not be a 
        ``gatekeeper,'' sorting students into unequal paths, but 
        rather, it should serve to well prepare all students for 
        wherever their chosen career paths lead. High school should be 
        a Gateway to success for all.

        2. Secondly, the achievement gap for high poverty and minority 
        students must close. Traditionally--and sadly--these students 
        are too often placed in our least challenging classes and thus 
        may face economic lifetimes of minimum wage earnings. Requiring 
        a rigorous curriculum for all students will have the 
        potentially greatest impact on our poor and minority students.

        3. The Gateway Curriculum is not a wholesale attempt to send 
        all students to four-year universities. However, we firmly 
        believe that ALL students must be prepared for and access some 
        form of post-secondary education, be it vocational training, 
        military experience, trade school, community college, or 
        university studies. A high school education is not enough any 
        more, if our students are to compete locally, nationally, and 
        internationally.

        4. Too many of our graduates are required to take remedial 
        level college coursework because they have not been properly 
        prepared for post-secondary studies. Our own research clearly 
        demonstrates that completing a fourth year of math in high 
        school, including second-year algebra, eliminates the need for 
        this remediation. I need to emphasize that this fourth year of 
        math need not be the traditional trigonometry or calculus. A 
        variety of rigorous, fourth-year courses, including math 
        related to the skilled trades or the business world, are 
        currently under development.

        5. Finally, thanks to the American Diploma Project, it is now 
        well documented that the demands of the workplace and the 
        requirements for post-secondary education have converged. The 
        paradigm has shifted. All students need both post-secondary 
        education and a job. It is not an either-or situation. All 
        students need first and second year algebra, geometry, 
        statistics, and data skills. All students need strong oral and 
        written communication skills, as well as analytical thinking 
        and research capabilities. All students will clearly benefit 
        from additional math and science courses.

    As the Washoe County School District prepares its first group of 
students to take part in this new curriculum, it will be critical that 
both thoughtful course development and well-designed student support be 
adequately addressed. Furthermore, we understand very well that this is 
not merely a high school policy, but rather a K-12 policy that demands 
that those teaching at the elementary and middle school levels do all 
that is necessary to prepare the students for these new curriculum 
challenges. If we adequately address these issues, along with 
meaningful teacher professional development and parental support, we 
will have come a long way in ensuring success for our students, our 
school district, and the community we serve. Thank you.

    Senator Ensign. Thank you.
    Our next witness will be Thomas McCausland.
    Mr. McCausland is the President and CEO of Siemens Medical 
Solutions USA. He will be discussing what Siemens has done in 
the private sector to help address this ever-growing problem.

   STATEMENT OF THOMAS N. McCAUSLAND, PRESIDENT/CEO, SIEMENS 
                       MEDICAL SOLUTIONS

    Mr. McCausland. Thank you, Mr. Chairman, and good morning. 
Thank you for inviting me today and giving Siemens the 
opportunity to discuss our perspectives on the role of math and 
science education in innovation and maintaining U.S. 
competitiveness.
    My name is Tom McCausland, and I am the chairman of the 
Siemens Foundation, as well as the president and CEO of Siemens 
Medical Solutions, headquartered in Malvern, Pennsylvania.
    As one of the world's leading engineering and technology 
companies, Siemens has long recognized the importance that 
innovation plays in staying competitive in the global economy. 
We invest heavily in innovation by dedicating $900 million a 
year to research and development here in the United States 
alone, where we have closer to 7,000 employees working 
specifically in this field. Globally, Siemens spends $6.0 
billion a year, with 70,000 employees in R&D filing close to 26 
patents per day. In our business, the velocity of innovation is 
so fast that 75 percent of our products marketed today have 
been developed just in the last 5 years.
    Innovation and growth are not possible without highly 
qualified and educated scientists, mathematicians, and 
engineers. It is absolutely imperative that we do everything 
that we can to keep up with the growing global demand for these 
minds if the United States is to remain in the competitive edge 
in the global arena.
    Siemens applauds the efforts of the Senate--of Senator 
Ensign and others in the Committee for their efforts in 
focusing Congressional attention on the potential harm of the 
U.S. innovation deficit caused by a lack of commitment to long-
term research and development and math, science, and technology 
education excellence. By raising the bar through programs like 
the National Innovation Act and the American Competitiveness 
Institute, we feel that we can achieve the goals of enrolling 
more students in master's programs and graduate research 
fellowships, and produce the 10,000 more scientists, students, 
post-doctoral fellows, and technicians, in addition to the 
100,000 highly qualified math and science teachers that we need 
by 2015.
    While government is obviously the primary force moving us 
forward, we at Siemens, as well as our colleagues at other 
corporations in the private sector, are also working to 
challenge and motivate the next generation of engineers and 
scientists. In fact, 15 national business organizations led by 
the Business Roundtable, have joined together in a coalition to 
support action on this issue at all levels of government--
Federal, State, and local--as well as by the private sector, 
including parents, educators, and community leaders. The 
coalition, called Tapping America's Potential, has set a goal 
of doubling the number of bachelor's degrees awarded annually 
to U.S. students in science, technology, engineering, and math.
    To give you some examples of what we, at Siemens are doing, 
we recently created Siemens Science Days, a program designed to 
spark an interest in math, science, and engineering among 
fourth- and fifth-graders. We are doing this by using our 
70,000 employees located in all 50 States to go out to the 
schools in their communities and to show students the exciting 
opportunities in these fields through real-world examples and 
through hands-on activities.
    Since the inception of this program just over a year ago, 
we have reached close to 5,000 students in 13 States. However, 
we cannot expect students to become scientists and engineers if 
we do not keep encouraging them and challenging them throughout 
their schooling. That is why we also reward students who pursue 
studies and excel in these fields by awarding scholarships 
through our Siemens Awards for Advanced Placement and the 
Siemens Competition in Math, Science, and Technology.
    The Siemens Awards for Advanced Placement recognize the top 
male and female student from each state who has scored the 
highest in their math and science advanced placement exams by 
presenting them with a $2,000 college scholarship, and, in 
addition to the top national male and female winner, who 
receives a $5,000 scholarship, we also recognize one teacher 
and one school from each state with a $1,000 award for their 
math and science programs.
    The Siemens Competition in Math, Science, and Technology is 
the Nation's premier science and math research competition for 
high school students where we award $750,000 in scholarships 
annually to students and the top student and team each wins a 
college scholarship of $100,000. In this endeavor, we partner 
with the college board and seven premier universities, of which 
the University of Texas is one.
    While these are truly incredible students, their 
achievements would not be possible without the dedication and 
mentoring provided by their teachers and schools. So, to ensure 
that we continue to have excellent teachers, we not only award 
grants to teachers and schools through the Siemens Awards for 
Advanced Placement, but also through the Siemens Competition, 
where we recognize schools with a $2,000 award for each project 
from the school that makes it to the regional finalist level.
    We are proud of the teachers we have now. However, we also 
want to make sure that we continue to have excellent teachers 
in the future. That is why, just in this past year, we 
partnered with the United Negro College Fund and the Thurgood 
Marshall Scholarship Fund to award scholarships to students 
studying at the Nation's historically black colleges and 
universities who are training to become teachers in math and 
science.
    Since we launched all of our programs, we have awarded 512 
scholarships through the Siemens Competition, 250 scholarships 
to students, as well as 180 awards to teachers and 129 to 
schools, through the Siemens Awards for Advanced Placement, and 
40 scholarships through the Siemens Teacher Scholarships.
    But we are not the only ones to place a high priority on 
education initiatives. As a founding member of the Business 
Education Network, which is an affiliate of the U.S. Chamber of 
Commerce, we are working closely with colleagues at other 
leading companies from across the Nation to make sure that we, 
as businesses, are doing our part to foster and challenge 
tomorrow's innovators.
    We are encouraged that the Committee is exploring the 
education issues necessary to keeping America at the innovation 
forefront. As you consider the Committee's program and begin to 
address the educational problems of this country, we would like 
to take the opportunity to offer you the assistance of Siemens. 
We look forward to working with Congress and the Administration 
to help identify ways to work more collaboratively in helping 
to prepare today's students to become tomorrow's innovators.
    Thank you, again, for allowing me to testify.
    [The prepared statement of Mr. McCausland follows:]

Prepared Statement of Thomas McCausland, President/CEO, Siemens Medical 
                               Solutions

    Mr. Chairman, Ranking Member and other Members of the Committee, 
good morning. Thank you for inviting me today and for giving Siemens 
the opportunity to discuss our perspectives on the role of math and 
science education to innovation and maintaining U.S. competitiveness. 
My name is Thomas McCausland, and I am the chairman of the Siemens 
Foundation as well as the President and CEO of Siemens Medical 
Solutions headquartered in Malvern, PA. Mr. Chairman, with your 
permission, I would like to insert my written statement in the hearing 
record, and I will provide a brief summary.
    As one of the world's leading engineering and technology companies, 
Siemens has long recognized the importance that innovation plays in 
staying competitive in the global economy. Siemens invests heavily in 
innovation by dedicating $900 million dollars a year to research and 
development here in the United States alone, where we have close to 
7,000 employees working specifically in this field. Globally, Siemens 
spends $5.2 billion a year with 70,000 employees in R&D, filing close 
to 26 patents per day.
    So, as you can see, making sure that we have enough highly skilled 
and qualified scientists, mathematicians, and engineers is a priority 
for us. Because without them, we will not be able to make advancements 
on the technologies that we have today. Just how important is it to 
have enough scientists, mathematicians, and engineers? Seventy-five 
percent of Siemens products have been developed over the last five 
years.
    Innovation and growth are not possible without highly qualified and 
educated scientists, mathematicians and engineers. And it is absolutely 
imperative that we do everything that we can to keep up with the 
growing global demand for these minds if the United States is to 
maintain its competitive edge on the global arena.
    Siemens applauds the efforts of Senator Ensign and others on the 
Committee for their efforts in focusing Congressional attention on the 
potential harm of a U.S. innovation deficit caused by a lack of 
commitment to long-term research and development and math, science and 
technology education excellence. By raising the bar through programs 
like the National Innovation Act and the American Competitiveness 
Initiative, we feel that we can achieve the goals of enrolling more 
students in master's programs and graduate research fellowships, and 
produce the 10,000 more scientists, students, post-doctoral fellows and 
technicians in addition to 100,000 highly qualified math and science 
teachers that we need by 2015. While Government is obviously the 
primary force moving us forward, we at Siemens and as well as our 
colleagues at other corporations in the private sector are also working 
to challenge and motivate the next generation of engineers and 
scientists. In fact, fifteen national business organizations, led by 
the Business Roundtable, have joined together in a coalition to support 
action on this issue at all levels of government: Federal, State and 
local, as well as by the private sector, including parents, educators 
and community leaders. The coalition called: Tapping Americas 
Potential, has set a goal of doubling the number of Bachelors degrees 
awarded annually to U.S. students in Science, Technology, Engineering 
and Math.
    To give you some examples of what we at Siemens are doing, we 
recently created Siemens Science Days--a program designed to spark an 
interest in math, science and engineering among 4th and 5th graders. We 
are doing this by using our 70,000 employees located in all 50 states, 
to go out to the schools in their communities to show students the 
exciting opportunities in these fields through real world examples and 
through hands-on activities. Since the inception of this program just 
over a year ago, we have reached close to 5000 students in 13 states.
    However, we cannot expect students to become scientists and 
engineers if we do not keep encouraging them and challenging them 
throughout their schooling. That is why we also reward students who 
pursue studies and excel in these fields by awarding scholarships 
through our Siemens Awards for Advanced Placement and the Siemens 
Competition in Math, Science and Technology.
    The Siemens Awards for Advanced Placement recognize the top male 
and female student from each state who has scored the highest in their 
math and science Advanced Placement exams, by presenting them with a 
$2,000 college scholarship, in addition to a top national male and 
female winner, who receives a $5,000 scholarship. We also recognize one 
teacher and one school from each state with a $1,000 award for their 
math and science programs.
    The Siemens Competition in Math, Science, and Technology is the 
Nation's premier science and math research competition for high school 
students, where we award approximately $750,000 in scholarships 
annually to students and the top student and team each wins a college 
scholarship of $100,000. To give you an idea of just what it takes to 
win the Siemens Competition, the most recent winner, Michael Viscardi, 
solved the 19th century Dirichlet problem, which can be used to 
calculate the amount of heat at any point across the surface of an 
object. The previous year's winner, Aaron Goldin, invented a gyroscopic 
generator that uses the movement of ocean currents to generate 
electricity.
    While these are truly incredible students, their achievements would 
not be possible without the dedication and mentoring provided by their 
teachers and schools. So to ensure that we continue to have excellent 
teachers, we not only award grants to teachers and schools through the 
Siemens Awards for Advanced Placement, but also through the Siemens 
Competition, where we recognize schools with a $2,000 award for each 
project from their school that makes it to the regional finalist level.
    We are proud of the teachers we have now; however, we also want to 
make sure that we continue to have excellent teachers in the future. 
That is why just this past year, we partnered with the United Negro 
College Fund and the Thurgood Marshal Scholarship Fund to award 
scholarships to students studying at the Nation's historically black 
colleges and universities who are training to become teachers in math 
and science.
    Since we launched our programs, we have awarded 512 scholarships 
through the Siemens Competition; 250 scholarships to students, as well 
as 180 awards to teachers and 129 to schools through the Siemens Awards 
for Advanced Placement; and 40 scholarships through the Siemens Teacher 
Scholarships.
    But we are not the only ones who place a high priority on education 
initiatives. As a founding member of the Business Education Network, 
which is an affiliate of the U.S. Chamber of Commerce, we are working 
closely with colleagues at other leading companies from across the 
Nation to make sure that we as businesses are doing our part to foster 
and challenge tomorrow's innovators. Additionally, we are also on the 
board at the Business Roundtable, which is committed to advocating 
public policies that ensure vigorous economic growth, a dynamic global 
economy, and the well-trained and productive U.S. workforce essential 
for future competitiveness.
    So why are we so focused on making sure that we have enough highly 
skilled and qualified scientists and engineers in the coming 
generations? The innovations that these brilliant young people create 
are the lifeblood of Siemens and the millions of Americans we serve.
    For instance at the moment, Siemens radiation therapy systems treat 
30,000 cancer patients every day; our lighting and control systems 
operate at 65 of the nations 100 busiest airports, to ensure that air 
travel continues safely and efficiently; our power generation equipment 
produces one third of the Nation's electricity; our water filtration 
plants filter enough clean drinking water to fill 750,000 bottles; and 
our building automation, fire safety and security solutions in over 
35,000 North American facilities help ensure that we live and work in 
safe and energy efficient buildings.
    If we do not have the next generation of scientists, mathematicians 
or engineers, then who is going to develop the next life saving cancer 
therapy equipment? Or ensure that we can meet the growing demand for 
energy in this country with the most efficient and environmentally 
friendly technology? Or provide enough clean drinking water for our 
families? Or develop more advanced building technologies to give us the 
peace of mind that we are living and working in the safest buildings?
    As Benjamin Franklin pointed out, ``investment in knowledge pays 
the best interest'', and we need to make sure that we are investing 
heavily in our students. They are the future of our Nation, and the 
better we prepare them today, the more our Nation will advance 
tomorrow.
    We are encouraged that the Committee is exploring the education 
issues necessary to keeping America at the innovation forefront. As you 
consider the Committee's program and begin to address the educational 
problems of this country, we would like to take the opportunity to 
offer you the assistance of Siemens. We look forward to working with 
Congress and the Administration to help identify ways to work more 
collaboratively in helping to prepare today's students to become 
tomorrow's inventors.
    Thank you again for allowing me to testify. I look forward to 
answering any questions that you might have.

    Senator Ensign. Thank you.
    Finally, we will hear from Dr.--and this is a challenging 
name, but we're going to give it a shot----
    Dr. Miaoulis. Miaoulis.
    Senator Ensign.--Ioannis Miaoulis? Is that it?
    Dr. Miaoulis. That's right.
    Senator Ensign. Very good. Dr. Miaoulis is the President 
and Director of the Museum of Science in Boston. He will 
discuss what museums and other public nonprofits are doing in 
the fields of science, technology, engineering, and math.

    STATEMENT OF DR. IOANNIS MIAOULIS, PRESIDENT, MUSEUM OF 
            SCIENCE; DIRECTOR, NATIONAL CENTER FOR 
                     TECHNOLOGICAL LITERACY

    Dr. Miaoulis. Thank you, Mr. Chairman. Thank you for the 
opportunity and your enthusiasm and support for education.
    My involvement with the K-12 science education started in 
the mid-80s. I was a professor at Tufts University in 
Massachusetts, and later on became Dean of the School of 
Engineering. Actually, Senator Sununu's father was one of my 
colleagues at Tufts, in the Mechanical Engineering Department.
    I was quite involved with schools, in K-12 schools, working 
on the science curriculum. In the early 1990s, I realized that 
what we cover in science does not cover what we intend to cover 
in science. In science, we try to prepare--we teach science, 
because we want the children to understand the world around 
them. However, most of the items and processes we use every day 
are man-made, they are not natural. Just try to imagine how 
this meeting would look like with nothing man-made. And if you 
look at the curriculum, it focuses about 98 percent on things 
like rocks and animals and the human body and chemical 
reactions, and it does not cover things like how cars work or 
how the phone works. We spend about a month during the kids' 
schooling teaching them how volcanoes work, and no time 
teaching them how a car works. How often do you find yourself 
in a volcano, compared to a car? You know?
    [Laughter.]
    Dr. Miaoulis. Why is it so important that we only teach 
about the natural world and not about everything else we deal 
with? I think we should have a balanced curriculum, teach about 
volcanoes and flowers, but also teach about how buildings work, 
how pens work, how technology works. Technology is not just 
computers and VCRs and PDAs.
    So, fueled with this passion to introduce engineering into 
schools, and also armed with a couple of other good arguments: 
first, that engineering makes math and science relevant, 
because kids see how you can use math and science to solve real 
problems, and also opens career opportunities to children that, 
frankly, do not know what engineers do. Most people in the 
United States do not know what engineers do. They think that 
engineers drive trains and repair VCRs. When the Space 
Shuttle--when the Space Shuttle goes up, everybody calls it a 
science miracle. When something goes wrong, they call it an 
engineering error.
    [Laughter.]
    Dr. Miaoulis. By the way, there isn't such a thing as a 
``rocket scientist.'' They are called ``aerospace engineers.''
    [Laughter.]
    Dr. Miaoulis. So, fueled with all these arguments, in 1998 
we started the process in Massachusetts to introduce 
engineering as part of the formal curriculum into schools. And 
in the year 2001, Massachusetts became the first state in the 
country to have engineering as part of the K-12 curriculum and 
test it. As you know, if it's not tested, unfortunately, it's 
not taught.
    When the museum approached me to ask me if I'm interested 
in joining it, I saw that as a tremendous opportunity to start 
a national effort to introduce engineering as part of the 
curriculum in every school in every state. So, I joined the 
museum in 2003, and in 2004 we started the National Center for 
Technological Literacy, and we have goals that are very simple 
to articulate and probably challenging to achieve. We want, by 
year 2015, to have engineering in every single school in every 
single state, from K through 12, and, by 2015, to have at least 
one cultural institution in every state that champions 
technological literacy for all citizens.
    Now, what do we do to accomplish that? In the National 
Center we do three things. First, we provide advocacy and 
support. Part of what I'm doing today is the advocacy part. I 
have visited more than two-thirds of the states to talk with 
key education folks in trying to convince them to introduce 
engineering as part of their regular curriculum. Once a state 
agrees that this is an important thing, then we have a team of 
experts that go into that state and help them develop 
standards. We're currently working with 25 states, and we would 
love to work with Nevada. That's not one of the 25 states. I 
hope you can help us do that.
    The second thing we do is curriculum. We have identified 
and purchased and put online information about all the 
curricula we could find worldwide in engineering and technology 
education, and we have correlated them with International 
Technology Education Association (ITEA) standards. So, a 
teacher can go online for free and find out what's available 
for engineering and technology for a particular grade level. We 
get about 2,000 teachers using our website every week.
    Also, we identified gaps in the curriculum. In the 
elementary school level, there is very little in engineering 
education. And their teachers spend most of the time teaching 
kids how to read. Instead of fighting that, we work with the 
teachers. We have a series of books that are now used by 
thousands of children, and they are storybooks. Each book 
features a child from a different part of the world that talks 
about her community and a challenge the community faced, and 
how an engineer solved the problem. And kids get to do 
engineering activities as they learn how to read, and they 
learn about world culture.
    Also, we have a high school curriculum that's now being 
taught in about a quarter of the schools in Massachusetts and 
in several other states. In our text book there is the story of 
32 engineers that do things that high-schoolers found very cool 
and very interesting. Although it sounds like a storybook, the 
material covers 100 percent of the technology and engineering 
standards and 80 percent of the physics standards of 
Massachusetts.
    The third thing we do is professional development through 
workshops with teachers and administrators to help them 
integrate engineering into the curriculum. Typically we form 
partnerships with institutions throughout the United States, 
because we cannot physically be present in every single state, 
running workshops.
    So, these are the three things we do in regard to 
technological literacy. And now, I want to read to you some 
policy recommendations. Please consider the following as you 
craft innovation legislation:
    Include engineering and technology teachers alongside math 
and science teachers in any and all incentive programs enacted 
to recruit, train, mentor, retain, and further educate 
teachers. These teachers should teach the engineering and 
innovation process. Many people remember technology education 
as ``shop class.'' Well, I'm afraid it will remain ``shop 
class'' if these teachers are not provided with continuing 
educational opportunities to bring their skills up to 21st-
century expectations.
    Be sure to define ``engineering and technology education'' 
to include the engineering design process. Senator Kennedy's 
new National Defense Education Act has a fine definition and 
has included technology teachers, as well as math and science 
teachers, in the various teacher programs.
    As you define ``rigorous curricula,'' consider requiring 
that each student take at least one engineering or technology 
course for graduation. The problem-solving skills taught in 
engineering will benefit all students, even if they do not 
pursue a technical career.
    Also, remember that museums are excellent providers of 
teacher professional development, a resource that is likely 
underutilized in many communities. Be sure they are eligible 
participants in these initiatives.
    Science assessments will soon be required by No Child Left 
Behind. First, work to ensure that they mirror the newly 
adopted NAEP Science 2009 Framework, which includes 
technological design as a required skill set. Second, require 
some measure of progress, as with the adequate yearly progress 
for reading and math. If there is no--if there are no 
repercussions, States will not likely invest much in their 
success.
    And, finally, if we're truly concerned about innovation and 
global competition, it is time for a major commitment and 
investment in technological literacy. The National Center for 
Technological Literacy at the Museum of Science is perfectly 
positioned to serve the Nation in this capacity. We work with 
other science and technology centers and State departments of 
education to upgrade their engineering and technology 
standards, assessments, curricula, teacher preparation and 
certification programs. If we can be of any service in any 
State--in your State, Mr. Chairman--please let us know.
    I'll be happy to answer any questions.
    [The prepared statement of Dr. Miaoulis follows:]

   Prepared Statement of Dr. Ioannis Miaoulis, President, Museum of 
     Science; Director, National Center for Technological Literacy

    Good morning and thank you, Mr. Chairman, and Members of the 
Subcommittee. I will not take your time reiterating the well-documented 
educational problems facing this country. Mr. Chairman, and Members of 
the Subcommittee, it is clear you recognize the challenges with the 
introduction of your National Innovation Act. I am most grateful for 
the opportunity to share with you an exciting education innovation 
spreading across the Nation. I will offer some policy suggestions at 
the conclusion of my time.
History
    Massachusetts was the first in the Nation to incorporate 
engineering into its state K-12 frameworks or standards. I am proud to 
have been a part of that process while serving as Dean of Engineering 
at Tufts University. These state standards were modeled after the 
International Technology Education Association standards. The state 
then rightly moved to include engineering in the state assessments--
because we know if it isn't tested, sadly, it isn't taught.
Rationale
    I understand the concern for math and science education but I am 
worried that K-12 technology and engineering education is overlooked. 
The reason may be that the existing curriculum was adopted over 100 
years ago when technology was not as pervasive. Our science curriculum 
focuses on the natural world but rarely the human-made world--the 
things students interact with everyday.
    The beauty of engineering is that it is the connector. It is the 
application of math and science that provides relevance to students. 
This answers the perennial question, ``Why do I have to learn 
algebra?''
Definitions
    Many people are unclear about the definitions of science, 
engineering and technology education. Science is the study of and 
inquiry into the natural world. Engineering is designing under 
constraints, which impacts both the natural and the human-made world. 
New technologies are the result of the engineering process.
    Many people confuse educational technologies (or IT gadgets) in the 
classroom with technology education, the study of innovation and 
design. That is why I prefer to stick with the term, ``engineering 
education;'' there is no room for confusion.
National Center for Technological Literacy
    To promote engineering in K-12 classrooms across the nation, the 
Museum formed the National Center for Technological Literacy.
Educator Resource Center
    Our first mission was to find resources for teachers to use. We 
created an online Educator Resource Center, like Amazon, that contains 
only engineering and technology curricula (the way we define and 
understand it). Frankly, we found very little at the elementary level, 
some fair middle school curricula, and some very expensive high school 
programs.
Engineering is Elementary
    To fill the void, we are developing the ``Engineering is 
Elementary'' curriculum that meets the national and state standards. 
With some corporate seed money and a generous grant from the National 
Science Foundation, we are developing a series of 20 engineering units 
for children in grades K-5. These units are aligned with popular 
science topics and are heavily weighted in literacy and social studies 
so it is very easy for teachers to integrate them into their lessons.
    After publishing just 7 units, we have been overwhelmed with the 
interest we have received from across the nation. We partner with other 
science centers, universities, school districts, and others around the 
country to provide the teacher professional development and help 
disseminate this exciting curriculum. In fact, these units, which are 
thoroughly pilot and field-tested, are currently being reviewed by NASA 
for their Explorer Schools program.
Results
    Not only are the kids having fun while learning, and the teachers 
are raving about the units, we have the data to show that we are 
busting some unfortunate myths children (and teachers) have about 
engineers and technology. Most children and teachers think that 
technology is an electrical device of some sort. They think engineers 
mostly work in construction or with electricity. These are fields that 
typically do not attract women or minorities. They don't understand 
that this pen, these windows and water bottles, are forms of 
technology, designed by engineers. They have no idea of the vast array 
of careers that are available to them in the wide range of fields of 
engineering that our innovation economy needs.
Engineering the Future
    We are also field-testing a full-year high school course, 
``Engineering the Future,'' for students in grade 9 or 10 in which 
students apply math and physics to solve real-world problems. Similar 
to the elementary curricular results, initial findings show an increase 
from 45% to 79% in understanding that examples of technology include 
not only electronic devices but also devices that satisfy human needs.
Outreach
    We have been invited to help, in one way or another, in 25 states. 
Whether it is serving as a keynote speaker, providing advice on 
standards revision, offering teacher professional development 
workshops, or providing curricula, the interest in K-12 engineering 
education is growing.
Why Us?
    We are not your typical curriculum developers. We are not text book 
publishers. The Museum is a nonprofit science and technology center. 
Our Board of Directors, representatives of national and multi-national 
companies, believe this is a national imperative. They support the 
mission of the National Center for Technological Literacy to enhance 
technological know-how by introducing engineering as a new discipline 
in K-12 schools and to present technology as equal to science in the 
informal education setting.
    We hope you agree.
Policy Recommendations
    Please consider the following as you craft innovation legislation:

  <bullet> Include engineering/technology teachers alongside math and 
        science teachers in any and all incentive programs enacted to 
        recruit, train, mentor, retain and further educate teachers. 
        These teachers should teach the engineering and innovation 
        process. Many people remember technology education as ``shop 
        class.'' Well, I am afraid it will remain shop class, if these 
        teachers are not provided with continuing educational 
        opportunities to bring their skills up to 21st century 
        expectations.

  <bullet> Be sure to define ``engineering/technology education'' to 
        include the engineering design process. Senator Kennedy's New 
        National Defense Education Act has a fine definition and has 
        included technology teachers as well as math and science 
        teachers in the various teacher programs.

  <bullet> As you define ``rigorous curricula,'' consider requiring 
        that each student take at least one engineering/technology 
        course for graduation. The problem-solving skills taught in 
        engineering will benefit all students, even if they do not 
        pursue a technical career.

  <bullet> Remember, museums are excellent providers of teacher 
        professional development, a resource that is likely under-
        utilized in many communities. Be sure they are eligible 
        participants.

  <bullet> Science assessments will soon be required by No Child Left 
        Behind. First, work to ensure that they mirror the newly 
        adopted NAEP Science 2009 Framework which includes 
        ``Technological Design'' as a required skill set. Second, 
        require some measure of progress as with the aolequate yearly 
        progress for reading and math. If there are no repercussions, 
        states will not likely invest much in their success.

  <bullet> Finally, if we are truly concerned about innovation and 
        global competition, it is time for a major commitment and 
        investment in technological literacy. The National Center for 
        Technological Literacy is perfectly positioned to serve the 
        Nation in this capacity. We work with other science and 
        technology centers and state departments of education to 
        upgrade their engineering/technology standards, assessments, 
        curricula, teacher preparation and certification programs. If 
        we can be of service in your state, please let me know.

    I am happy to answer any questions you may have.

    Senator Ensign. Thank you.
    I want to thank the entire panel. You know, obviously we 
have a full range of people involved in the education of our 
children, and that is one of the reasons we set the panel up 
this way, so that we could hear about some great things that 
are happening out there in America. And a lot of these things 
need to be replicated across the country. I mean, it is great 
to learn about little pockets of progress, but, Dr. Miaoulis, 
as you talked about, it needs to happen in every school. And, 
Mr. Dugan, as you were talking about in Reno, all children need 
to be exposed to these things. And I am glad you are here to 
hear what Dr. Miaoulis was talking about, about the importance 
of teaching engineering in the younger grades. Some of this 
stuff is common sense, but it is not traditional. And that is 
why I think that we need to look at what we are doing in 
America to educate the next generation in science and math. 
When you're living in an information age, and you have been 
teaching in your schools based on curricula developed in a 
different type of industrial age, you have to remake your 
schools to reflect what we need to be competitive in the world. 
The rest of the world is reforming how they teach these 
subjects in their schools, and we need to adapt here in the 
United States.
    I liked what Senator Sununu talked about, about a teacher 
inspiring students. In an earlier hearing we had Craig Barrett, 
Chairman of Intel, talk about some of the awards that Intel 
distributes. They are similar to what the Siemens Corporation 
is doing. I think it is wonderful, and I want to applaud 
corporations like Siemens and Intel for what they are trying to 
do: inspiring young people. In addition, one of the things 
Craig asks every one of the winners of the Intel awards he 
talks to is, ``What inspired you to go into science?''--and 
every single one of them have responded that, ``it was a 
teacher.''
    And I thought, Dr. Rankin, what you talked about was 
fascinating to me in the last hearing that we had. If you are 
an education major who happens to take a couple of science 
classes, your passion is not science. Whereas, if you are a 
science or a math major, or an engineering major, that's where 
your passion is, and you happen to teach--or you then take 
classes on how to teach, that makes a lot more sense to me. If 
I'm going to have somebody inspire students, I want somebody 
that actually is inspired by science themselves. And that's 
where I think that a lot of this needs to go.
    We have huge challenges, because we have a lot of teachers 
out there that are already teaching. We do have a shortage of 
science and math teachers across the country--definitely in my 
state at least. But I love a lot of the ideas that we are 
hearing today.
    I want to start with you, Dr. Rankin. Retention rates among 
all teachers is a huge problem today. How do your retention 
rates compare with those for the average teacher? Do you have 
any statistics on that?
    Dr. Rankin. Well, we know that about--as I said a few 
minutes ago, three-quarters of the students that we produced 
that are out teaching for 5 years are still teaching. So, 
that's huge. I mean, we've actually looked in the Austin 
Independent School District at retention in schools of math and 
science teachers, and the turnover in 5 years in Austin is 100 
percent. That doesn't mean they've all left teaching----
    Senator Ensign. Right.
    Dr. Rankin.--but they've all----
    Senator Ensign. Statistics.
    Dr. Rankin.--left that school. And many of them have left 
teaching.
    Senator Ensign. Mr. Dugan, what kind of turnover--or what 
kind of retention rates do you see after 5 years, normally, 
with teachers?
    Mr. Dugan. Senator, for Washoe County School District, I 
think ours is above average, but our concern is being able to 
attract--as we add these math and science classes, we are very 
concerned that we won't have the math and science teachers to 
fill the additional classes that we need to fill, and, when the 
teachers that we have leave, that we won't be able to fill them 
with new math and science teachers.
    Senator Ensign. Let's take this to our responsibility up 
here. As Senator Sununu said, we are limited in what we can do. 
But one of the purposes for having a hearing like this is to 
highlight some of the good things that are happening out there, 
to bring attention to them, to get TIME Magazine or other 
magazines to pay attention and to write articles about this, to 
get the press to report, so that other people pay attention, so 
a buzz is created, ``There's excitement going on, these things 
are happening. It's happening over here.'' We can shine a light 
on it and highlight those things, but we can also do other 
things up here--fund pilot projects and things like that. When 
you look at what you're doing with UTeach--and we want to see 
that replicated, and that's starting to happen in the other 
States--do you have any recommendations for us, up here? What 
would you do, or tell us to do, to have UTeach-style programs 
go to more places around the country?
    Dr. Rankin. I think we need an initiative that funds very 
faithful replications of proven programs. I mean, you know--and 
a lot of times--NSF has had a number of initiatives--the 
Department of Education--for coming up with new programs. And, 
in fact, we've had funding for that. But I think, at this point 
in time, really what we should be doing is trying to fund 
faithful replication, and maybe at some key sites across the 
country. I think we need to get Research-One universities 
involved in this, because, frankly, that's where the really 
strong students are that can go out and be the real leaders in 
schools. For years, the dogma was that those students would not 
be interested in teaching, wouldn't consider it. Well, that is 
not true. They really will. But it needs to be a kind of 
program that inspires them.
    So, I think what you need to do is identify really 
effective programs, we're not the only one.
    Senator Ensign. Right.
    Dr. Rankin. There are a number of them. But you need to 
find those and specify, in legislation, as precisely, as 
possible I don't know anything about writing legislation. I'm 
sure that's a challenge. But if you can--if you can manage to 
fund faithful replication, rather than new pilot projects, I 
think, in that--that's where we ought to be going right now.
    Senator Ensign. Let me turn to Mr. Dugan, and what you're 
doing in Washoe County. Some people are saying, ``Gosh, my 
child can't handle the math that they're taking now.'' We do 
hear that. And now you are going to increase the justification. 
Can you walk through why you think that it's important to 
increase the amount of math and science that is included in a 
more challenging curriculum?
    Mr. Dugan. Senator, I think, to answer that question, not 
only do we need to increase it, but we need to make it 
relevant. And that is going to be a real challenge. And that 
was one of the major concerns, because it was not easy for 
Washoe County to pass this, in December of 2004, because of 
some of the things that you just said. People were saying, 
``Well, you know, math already--my son or daughter's having 
trouble with it, and you're just going to add another math. 
They're going to want to drop out.'' And we are very sensitive 
to that. So, unless we--while it is important that we make it 
rigorous, it is equally important that we make it relevant. And 
so, what we are doing is working very closely with the 
university, the community college, and the business community 
in developing these fourth-year classes and looking at our 
second-year algebra classes and see how we can teach them 
differently. Because, you're right, if we do just the same that 
we've done, we'll have serious problems. And while I am very 
proud of what Washoe County is doing, I also could become very 
ashamed if we don't step up to the plate and provide the 
support to the students and make these courses relevant to 
them.
    Senator Ensign. I would make a suggestion, because I was 
very impressed with Dr. Miaoulis and some of the things that 
he's doing to inspire students in math, science and engineering 
fields. Dr. Miaoulis, I would love to get you out to Nevada. 
And one of the reasons I think it is good to have Mr. Dugan 
here is, some of the science that you're talking about is, I 
think, exactly what Dr. Miaoulis is talking about. And it would 
be great to hook the two of you up in some of the other school 
districts as well as our university systems in the state. We 
would love to help bring you out to Nevada and get you involved 
in our school systems and help us improve in the State of 
Nevada.
    I want to come back to some more questions, but I want to 
be cognizant of my colleague from Virginia, who has really been 
one of the leaders in technology. Senator Sununu, myself, and 
Senator Allen, we seem to be the three that are pretty 
consistent at showing up at hearings like this and 
participating. I think this is because all three of us have a 
real passion for this subject.
    So, I'll turn it over to you, Senator Allen, to spend a 
little time. Take whatever time that you need, and then I'll 
come back and we'll continue the discussion.
    Thanks.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. Thank you for 
letting me drop in.
    We're having a Foreign Relations hearing right now on the 
nuclear pact with India, which is very important. We have 
energy needs. So do they. And our relationship with India is 
very important.
    It also does work into this very same subject. And India is 
the world's largest democracy. They're also competitors. And 
having been in India and just seeing where they're going in 
innovation, I want to make sure the U.S. is the world capital 
of innovation. India is clearly moving that way, as well. And 
this hearing is very important. And I commend your leadership. 
And I just really enjoy working with you, because I think this 
is--there are certain things that are going to be key for the 
future of this country. We do need to get our--better energy 
security. We need to have the right tax and regulatory policies 
for investment. And education, knowledge--knowledge is power in 
the future.
    When one does look in--at engineers, scientists, 
technologists that we're graduating here in this country, 
compared to India, compared to China, those countries, right 
off the bat, have three times to five times the population. And 
the exponential difference, though--you take engineers, for 
example, who are important, since they're going to design and 
develop the new innovations, the intellectual property, the 
inventions of the future--you get all these different 
statistics, but every one of them, were one-quarter, let's say, 
of India, and one-eighth of China. When you then look even 
further, though, at those who are in our engineering schools, 
approximately a third or so are from another country, which is 
fine. I want America to be the magnet for the best minds in the 
world--in fact, you can attach a visa to their diploma if they 
graduate in some of these very important professions and 
disciplines for our future. But if, then, you look at the U.S. 
citizens--and some of you have mentioned and alluded to this--
generally speaking, you get these sorts of figures, that about 
15 percent of the engineers are women, African-Americans are 
about 6 percent, and Latinos are about 6 percent. Well, from my 
perspective, if we're going to compete with countries that have 
three, four, eight times as many people, we need to get all 
Americans interested.
    I've worked, in the past--and I want to commend Siemens for 
what you're doing in the scholarships with the United Negro 
College Fund and the Thurgood Marshall Scholarship at 
Historically Black Colleges and Universities. If one looks at--
not the University of Texas, necessarily, but if you look at 
minority-serving institutions, whether they're historically 
black colleges and universities or Hispanic-serving 
institutions or, the couple of dozen tribal colleges, you find 
that their technology infrastructure is simply not there, in 
most cases. And, indeed, since they don't have that technology 
infrastructure and--which is so important, they also don't have 
the faculty, which means, for those students at these minority-
serving institutions, they're not getting the training and 
education for--to be able to even compete to get the 60 percent 
of the jobs out there in the real world increasingly that 
require technological proficiency. That's why Senator Sununu 
and others have supported this measure I've gotten through the 
Senate twice which would provide grants to minority-serving 
institutions to upgrade their technology infrastructure.
    There are a variety of things that I think we need to do to 
incent, encourage young people--and, from listening to 
teachers, you have to do it by middle school; high school's too 
late; college is way too late--to make math cool, as you're 
doing there in Washoe County, or making it relevant--use the 
term ``math is cool.'' Altrai's trying to do that, in Richmond. 
Just make it relevant. Maybe nanotechnology advancements. Those 
lithium ion batteries that they're working on in Nevada, I 
think, are exciting, or trimetaspheres that'll be able to cure 
cancers and get right at the cancerous cells. Maybe those sorts 
of things will interest them. But I'd like to hear from each of 
you all. And since Siemens is actually doing it--you're asking, 
``What can the Government do?''--the scholarships that are part 
of the measure that we've introduced, I think, is very 
important. It says to parents and young people that, ``If 
you're good in biology or physics or sciences, math, 
engineering, you'll get a scholarship.''
    I saw a little girl, a middle school kid--I was giving a 
speech on the courthouse steps in Southside, Virginia, in 
Pittsylvania County, and she said she wanted to be a forensic 
scientist. I said, ``Oh, that's great.'' I said, ``What college 
do you want to go?'' She wasn't sure if she could afford 
college. And I thought, you know, if a child's good in this, 
income should not be a barrier. So, I think scholarships 
matter. Obviously, you all, at Siemens, believe that. But if 
you could share with us what specific idea do you all think 
would be beneficial to encourage or incent more women, African-
Americans, and Latinos, who are disproportionately 
underrepresented in these areas, which are great-paying jobs, 
which are important for the competitiveness of our country, 
and, ultimately, our security and standard of living.
    I'm going to start with you, Dr. Rankin, since you're in 
charge of UT.
    Dr. Rankin. Well, honestly, I think, again, teachers are 
the key. One of the things that prompted me to initiate the 
UTeach program was that I had been involved in a lot of very 
successful outreach programs to minority populations in Texas, 
and I thought they were very valuable for the individuals 
involved. I still do. And we have a lot of them. But it seemed 
like we were not really helping many people. Teachers have a 
multiplier effect that the individually focused outreach 
programs can't have. A teacher will affect hundreds, sometimes 
thousands of students, if they stay teaching a long time, and 
can be so inspirational. One of the things that I missed was 
really good role models in the classroom. One of the things 
that I like so much about UTeach is that we seem to be 
attracting a large number of minorities to this profession, who 
will then go out and be strong role models for their students.
    I think the other thing--I mean, we talk about focusing on 
substantial curriculum and the expectations for minority 
students. I think that is really key. If you expect these kids 
not to be able to do something, they won't do it. Low teacher 
and parent expectations are self-fulfilling, and the students 
themselves come to share those beliefs. The teacher, again, is 
really important in reversing this cycle. Having strong 
enrichment programs that expect them to succeed and put them 
into a rigorous curriculum, I think, is incredibly important. 
So, programs like Mr. Dugan has are very effective. We have a 
program at UT for top 10 percent kids that come in now, by law, 
to University of Texas with somewhat lower SAT scores and 
poorer preparation than other students. Everyone was afraid 
that these kids from the valley and rural areas and so on 
wouldn't succeed at UT. But we put them in, not a remedial 
curriculum, but an enriched curriculum that really actually 
challenges them in very positive ways and gives them applied 
problems. These kids succeed better than the average. They're 
doing beautifully. I mean, I think, actually, in the testimony 
that I submitted, there's a little summary of this program. But 
I think having expectations for success, and then giving kids 
the support and inspiration to get there is really key.
    Senator Allen. Thank you.
    Mr. Dugan, as opposed to ``Duggin,'' right?
    Mr. Dugan. Correct.
    Senator Allen. Alright.
    Mr. Dugan. Thank you, Senator.
    Currently, 69 percent of our students in Washoe County--and 
we have 62,000 students--end up taking three credits of 
science, and 45 percent end up taking four credits of math. But 
those that aren't doing that are--predominantly, are minority 
students. And so, when you ask, ``What is it that the Federal 
Government can do to support what we're trying to do?'' I would 
say I think you hit on it. Once we get these students, these 
minority students, into these programs, they have to be able to 
have the ability to go on to--whether it be a 4-year college or 
whether it be on to some vocational training. So, I would be 
looking at the support coming in ways of scholarships, dollars 
available to these students to make sure that they have the 
same access to post-secondary education that others do.
    Senator Allen. Thank you.
    Mr. McCausland?
    Mr. McCausland. Thank you, Senator.
    One of the things that I try to do is also talk to our 
competitors and winners of the advanced placement awards and 
just ask them how they--you know, what is it that is motivating 
them? And I always tell them--start out by saying, you know, 
``What do you call a geek--29-year-old scientist engineering 
geek?'' They say, ``I don't know.'' And I say, ``You usually 
call them `boss.' ''
    [Laughter.]
    Mr. McCausland. So, they want to know----
    Senator Ensign. I thought you were going to say 
``billionaire.''
    [Laughter.]
    Dr. Rankin. Yes, me, too.
    Mr. McCausland. Not at 29.
    [Laughter.]
    Mr. McCausland. It's usually 35.
    [Laughter.]
    Mr. McCausland. And so, they want to know that what they're 
doing is relevant, that they have some future for themselves. 
And I say--what I find is, it's the parents, it's the teachers, 
and it's some end goal or career that they're looking for, so 
that they know there's something out there for them to do at 
the end of their training, whether it be at the end of high 
school, or whether it be beyond, into college.
    So, it's got to be ``cool'' to be a scientist. And what 
we're trying to do is to create heroes. There are lots of 
sports heroes in high school. We want to have heroes of the 
kids who are in science and math, so that other kids can look 
up to them to say, ``Hey, I can do this, too.''
    And so, creating heroes, making sure that there's a future 
for them--that's really what they want to have. And then the 
inspiration, what we can do to make sure the parents and other 
teachers are there to stimulate them and make sure that they 
know that they've got somebody behind them to keep pushing 
them.
    Senator Allen. Thank you.
    Dr. Miaoulis. Senator Allen, in my testimony I talked about 
our National Center for Technological Literacy has as a goal to 
introduce engineering as a new discipline from K through 12. 
And I'm happy to tell you that Virginia, your State, is one of 
our partner States, and we worked recently at the Children's 
Engineering Conference in Richmond.
    If we're successful in introducing engineering from 
kindergarten through 12th grade, you'll eliminate the problem 
of having too few women and minority folks in engineering. And 
I'll explain to you why. First, we start at a very early age, 
through materials that show engineers and heroes looking like 
all the kids that engineering does not attract right now. So, 
they see folks from the African-American community, and from 
the Latino community being the heroes in their town because 
they solved a real problem. Then, if you look at who becomes 
engineers--I'm an engineer, too--about 68 percent of us have 
had a parent or a relative that's an engineer. If you take a 
group like African Americans, who are folks that go to college 
but do not go into engineering traditionally, they go into 
medicine, into law, into education, the parents and the 
relatives are not in the community to mentor the kids. And the 
reason engineering needs that parental or relative to push the 
kids is because it's not part of the regular curriculum right 
now. You have math, so kids know about math, know about 
reading, about social studies, but they don't know about 
engineering. If you have it as a discipline, the more kids will 
go into engineering, because they know what it is, and, 
frankly, because they see the relevance of engineering and how 
engineering can improve the world.
    We're talking about innovation in math and science, but if 
you think what's connecting math and science with innovation, 
it's through engineering, which is not part of the curriculum.
    And, by the way, Mr. Chairman, the reason that engineering 
is not part of the curriculum is, the topics that now are part 
of the curriculum were decided in 1893 by the Committee of Ten, 
chaired by President Elliot, at Harvard, and they didn't put 
engineering there, because all engineering, at that point, was 
focused on agricultural technologies, which was part of their 
home education, because 80 percent of folks were farmers. So, 
they didn't think to put engineering then, because it wasn't 
essential. But as technology took off, the topics didn't 
change, and now we have kids that know all the parts of a 
flower and have no idea how the world around them works.
    Senator Allen. Thank you all. I was taking notes through--
and they're all outstanding ideas that I think that we can 
buildupon. In fact, when you're talking about all of you, one 
way or the other were talking about role models and heroes and 
sports heroes and all the rest, so one thing that struck me 
when I was in India around last Thanksgiving I was meeting with 
the leaders of the India Institutes of Technology, and in that 
country there are plenty of women who are engineers. And so, 
it's a question of attitude, rather than aptitude. You're 
right, engineering is the application of it--building bridges, 
computer-aided designs. I like some of the computer games where 
my son or daughter can build an amusement park. Well, that's 
making it relevant. What do you want? Slides. What are the 
rollercoasters going to look like? Where are you going to have 
water, and all the rest? But the one thing that struck me is 
that they said that the children there--their ticket out of 
poverty in India and the poverty is heart-wrenching in India, 
notwithstanding its great economic growth--but the kids in 
middle school, they said they were focused on passing these 
exams at the end of high school so that they'd get into one of 
the India Institutes of Technology, where the tuition is 
obviously much, much, much less than tuition in our country.
    And in our country a lot of young people, if they're from a 
low-income background, their way out of poverty, they think, is 
football or basketball or baseball or some sports. One of you 
all--Mr. McCausland mentioned sports heroes. Well, it's going 
to be one out of 100,000 that are going to make it to the pros. 
And there's nothing wrong with team sports. In fact, I think 
they're great. You learn a lot from team sports. But as far as 
a career, a long-term career, and at--lead a fulfilling life, 
being an engineer, being a scientist, being a researcher, being 
even a technician of some sort, all of that is going to be a 
much more rewarding career for them, fulfilling, as well as 
more likely. So, we do need to make sure that young people know 
of these opportunities, help them meet those opportunities. 
Obviously, education's the key to it, but also make sure that 
every American, no matter their gender or race or ethnicity, 
recognizes that they should have this opportunity to compete 
and succeed and lead a fulfilling life.
    And I thank you, Mr. Chairman, and all of you all, for your 
testimony, your insight. This reinvigorates me, and I think 
we've gotten some really good insight from you. And we're going 
to keep fighting, recognizing we need more talent, we need more 
investment. And I know that the Chairman and I are going to 
provide the leadership to get this done for the future of 
America.
    Thank you.
    Senator Ensign. Thanks, Senator Allen. Thanks for being 
here and offering your valuable input to this hearing.
    I want to explore a couple of other questions before we 
conclude. And I want to go to Mr. McCausland and talk about the 
public-private partnerships that we're trying to explore up 
here in some of the innovation and competitiveness legislation. 
How important are such partnerships, and what would those 
public-private partnerships look like as we're going forward 
with competitiveness/innovation initiatives that we are 
considering up here on Capitol Hill?
    Mr. McCausland. Yes. I think, first of all, that most of us 
believe that we have to do something. That's why we're here. 
The world is a competitive world, and some of our competition 
is, you know, outside of the U.S. And so, making sure that the 
atmosphere, that private institutions like Siemens, have the 
ability to invest in, and get credit for investing in, programs 
that develop in--I want to be sure that we emphasize the fact 
that it's not just the students in engineering, but the 
teachers, as well, because we know that we can't graduate 10- 
or 20,000, or 200- or 300,000 engineers without the teachers in 
the background to be, making sure that we're getting them 
through the pipeline. So, making it relevant for industry to be 
able to invest in this, being able to encourage local 
partnerships, not only with the Federal Government, but with 
the cities and the communities that we live in, because clearly 
schooling all is local in our world. So, making sure that there 
are funds available and, I would say, also tax incentives for 
us to be able to do things that are targeted toward these very, 
very important feeder schools in the communities.
    Senator Ensign. Mr. Dugan, could you comment on the P-16 
Council? Kind of elaborating on this public-private partnership 
idea and what you're doing in the schools in Washoe County.
    Mr. Dugan. Gladly, Senator.
    Several years ago, Washoe County developed what we first 
called Partners in Education Program that consisted of 
educators at the community college/university level and high 
school, elementary, and middle school level. That grew into 
what we now call the Education Collaborative, which includes 
the business community and the communities of higher education. 
And working together, I think we have developed a much better 
relationship with all of those entities that you have to have 
in order for your educational program to be successful. It was 
the university system that worked with us to really develop the 
research that kind of woke us up with regard to the challenges 
we were having with students leaving our educational system and 
not being able to succeed at the college and community college 
level. That occurred about 5 years ago. So, that P-16 Council 
is truly a collaborative effort with all working toward the 
same goal of making sure that our students are not only 
prepared for college, but, equally important, prepared for the 
world of work. And so, we're very proud of it. And the State of 
Nevada is using the Washoe County's Education Collaborative 
model to develop their own P-16 statewide council, of which I 
am a member. And I think that will go a long ways to deal with 
the statewide challenges that we have.
    Senator Ensign. Dr. Miaoulis, we have a lot of after-school 
programs funded at the Federal level. Could you comment on even 
the use of museums? You know, Senator Allen was focusing on 
minorities, and a lot of the after-school programs are targeted 
toward lower income students, which are maybe overrepresented 
by minorities. Could you comment on that aspect of using 
museums as part of the after-school-type programs?
    Dr. Miaoulis. Museums are wonderful environments to be 
active participants in the after-school program. Not only do 
they offer education, but it has to be fun for the kids, 
because kids don't necessarily choose to go to school, but they 
choose to go to museums, so we have to make sure that it's a 
very appealing atmosphere. Also, teachers and parents feel 
comfortable going to a museum, because, again, it's a fun 
atmosphere. And museums participate, and can participate in two 
different ways, first by directly offering programs at their 
sites--and quite a few museums and science centers do that; 
and, second, by partnering with other organizations, like 4-H 
or Boys and Girl Scouts that offer after-school programs, to 
provide them with materials, like the ones we create at the 
National Center, or workshops for ``train the trainer'' kind of 
thing, so that they can offer after-school activities that are 
meaningful and are infused with science content. It's a 
challenge, because a lot of the after-school providers do not 
have a science background, so the resources should go into 
developing materials and also do professional development for 
after-school providers in the area of science and mathematics 
and engineering education.
    Senator Ensign. I'm glad you said that. It is interesting. 
We take our kids, and I've been on a few of the field trips. We 
have some of those very interactive science-type museums in Las 
Vegas, and we've taken our kids down there. And, like you said, 
it's really key that these museums are fun for the kids. Some 
of the highly interactive parts that they have really do make 
the science interesting and relevant to young students. And I 
think that is what we've all been talking about here, about 
making these subjects relevant. You have to make it relevant 
for a first-grader, and relevant for a senior in high school. 
And especially in today's world because some of the simple 
things that museums used to do are not nearly as relevant even 
to a first-grader today, because the technology has become so 
advanced. My youngest child is in first grade, and, you know, 
when they can play with a Game Boy or they can play with some 
of the other things, the museums are going to have to work on 
keeping all of the engineering relevant.
    When I was a kid, we used to hang out in museums all the 
time. It was just something we did, because I didn't have a lot 
of parental supervision when I was young, and that was one of 
the places we went and just hung out. And I think that that is 
a great atmosphere if the museum has the right things and can 
teach a lot of kids. So, I would encourage you to continue the 
work that you are doing.
    Another question--I want to go back to Dr. Rankin, because 
I think it is so important. When we are talking about what Mr. 
Dugan is doing in the high schools, and talking about getting 
those teachers trained, it isn't just about warm bodies. You 
know, we can't just have the teachers coming in and they happen 
to be like we've talked about before, the traditional, 
education major, who is not going to inspire that next 
generation of engineers, the next generation of people to go on 
and to become that 29-year-old geek that Mr. McCausland talked 
about, that happens to someday become that next billionaire. 
But part of this is about making math and science ``cool.'' 
This is part of what the teachers do. I mean, teachers make it 
exciting for students. They bring in the ideas that you've 
talked about, Mr. Miaoulis.
    I guess I want to explore just a little more on where you 
are coming up with these ideas, and how you are actually 
implementing to teach, maybe some of the specifics of your 
pedagogy?
    Dr. Rankin. Pedagogy, yes.
    I had to learn that word when we started this program.
    Senator Ensign. Yes. I guess that's a common word. When I 
say it around teachers, they all--they all understand, and they 
think it's----
    Dr. Rankin. Yes.
    Senator Ensign.--funny that I can't pronounce it properly, 
but----
    [Laughter.]
    Senator Ensign.--but in veterinary medicine, we never had 
that word, so it wasn't----
    [Laughter.]
    Senator Ensign.--something I learned. But I think that 
pedagogy is really an important concept you know, these science 
majors learning how to teach. What exactly are you teaching on 
the science aspect of that, that you discovered that was 
different? What are the actual techniques for teaching science 
or math, versus, you know, normal teaching in other subjects?
    Dr. Rankin. Part of it is teaching our students how to use 
discovery methods, how to really teach through inquiry and 
discovery. This is really important in science. Instead of 
standing up and giving a lecture, which is, of course, what 
most of us know how to do, it's very much harder, but much 
more--it's much more inspirational, and kids actually retain 
the information much longer if they can discover part of it 
themselves, or if they can have hands-on experience. So, we try 
to teach our students, even in their college courses in 
science, using those kinds of methods, and then also inform 
them as to how to use them, and how to use technology. I mean, 
talking about using Game Boys and things like that, these kids 
want fast feedback, they want excitement. And you can do some 
of that with technology, if you know how to use it properly. 
So, that's a big focus.
    Another thing, though, that we do--I mentioned briefly that 
we had these internships. And, frankly, it's a very good 
opportunity for public-private partnerships. But the 
internships fund students to do educationally relevant jobs 
instead of flipping hamburgers, they go out and work in after-
school programs or at museums or something where they can 
really use what they've learned in their science or math 
classes, use what they're learning in their pedagogy courses, 
but in a practical field situation, you know, not just a 
classroom. It reinforces their own learning, and it gives them 
these different kinds of exercises and sophistication, you 
know, in different kinds of situations.
    So, we try to use both applications in the field--that's 
one of the other reasons why we have field experiences in 
almost all the pedagogy courses. They go out and work in Austin 
classrooms to implement what they're being told how to do.
    Senator Ensign. On what Dr. Miaoulis is talking about--and 
I remember when I learned science and math as a student, I 
mostly learned about the earth around us and our surroundings--
When you're teaching are you implementing some of these 
practical discovery techniques?
    Dr. Rankin. Yes.
    Senator Ensign. Using the man-made objects, as well as 
the----
    Dr. Rankin. Yes.
    Senator Ensign.--natural objects?
    Dr. Rankin. We use kits and robotics and all sorts of 
things to teach principles. For example, if you're trying to 
teach them something about friction there are all kinds of 
tricks you can use that are fun for them, and yet get the 
principle across, and help them remember it. So, this is a big 
focus.
    And we also have, in fact, a special course for our 
students that's part of the pedagogy series, in research 
methods. So, they have a research experience, but they also 
learn how to set that up for a class. So, the class can 
actually discover new knowledge, not just do an exercise.
    We've tried to infuse that through all of the pedagogy, and 
also through the extra things that we do. But, frankly, a lot 
of this, the internships and all of this field experience under 
mentor teachers in the classroom requires extra money that is 
hard to find in a state schools' budget, you know. So, we 
fundraise all the time, from foundations and companies and so 
on, in order to pay for these extras. Again, I think that's a 
very good place for a public-private partnership, too, in 
replicating some of these programs. I'm sure we're not alone in 
that.
    Senator Ensign. Well, I want to thank all of you. It's been 
a great discussion. I've said this before: one of the reasons I 
really like subcommittee hearings, is because they can be more 
of a discussion, and you don't have to just have 5 minutes with 
15 Senators up here. You can have more of a discussion, back 
and forth. And I have personally found them to be very, very 
valuable. And they have influenced a lot of my thinking.
    I just want to emphasize to you that your time here is very 
valuable and very much appreciated. I think that your 
experiences and testimony is going to influence a lot of what 
the Senate is going to do, and hopefully the final product of 
what we do on innovation and competitiveness legislation that 
we are working on. We all recognize the challenges. You know, 
the devil's in the details, as we put all this stuff together. 
But your time here has been valuable for this Senator, and you 
also see behind me the staffs of all the other Senators, and 
they are the experts anyway. The Senators only know a little 
bit about a lot of this stuff. So, it's important that they 
heard a lot of the discussion that was going on today, and I 
think it's going to inspire us as we go forward with 
legislation.
    So, again, I want to thank all of you for being here today. 
This hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]


                            A P P E N D I X

   Prepared Statement of Hon. Conrad Burns, U.S. Senator from Montana

    In the Senate we are charged with spending the dollars entrusted to 
us by the taxpayers with the greatest possible efficiency and to create 
the greatest possible impact. We have a responsibility to show results 
for each dollar that we spend. Investment in research and development 
in mathematics, science, and engineering has always had a strong return 
on investment. These funds produce jobs, bolster economic growth and 
improve the quality of life for Americans.
    The country that wins the battle of technology will dominate the 
world economy in the decades to come. In the Senate, we must implement 
policies to ensure that the United States remains on the cutting edge. 
That means we have to train tomorrow's innovators today.
    The challenges facing today's educators are more complex then ever 
before. As policymakers, we must find ways to leverage Federal 
resources for the best interests of America's students not only in 
urban inner cities but in rural areas like Montana, where recruiting 
faculty poses a significant challenge.
    Today's students are tested in the same core subjects that have 
been a part of formal education for a century: mathematics, reading and 
writing, history, and science. In addition, students must learn to 
navigate new technologies to make them competitive in the job markets 
of tomorrow.
    I want to thank the witnesses for being with us today to talk about 
where STEM education fits into the puzzle of the modern curriculum.
    Interestingly, the solutions to these challenges require 
policymakers to think like engineers. We must take stock of our 
resources and develop plans to direct those resources where they will 
achieve the most success. We need to put in place broadband Internet 
access for our schools in order to lay the foundation for innovative 
distance-learning opportunities. Technology has the potential to 
eliminate the impact of distance and isolation and to provide a 
meaningful classroom experience from across the state, across the 
country, or even across the world. We need to partner educators with 
the small businesses and entrepreneurs in the local communities to 
teach life and work skills.
    I look forward to hearing the testimony of this panel. I am 
particularly interested in how STEM education can fit into the existing 
educational frameworks, and how proposed changes would affect the 
schools in Montana that face unique challenges that are fundamentally 
different from schools in America's urban centers.
                                 ______
                                 
          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    Mr. Chairman, I commend you for holding this hearing and I am 
disappointed that I could not personally attend the hearing due to my 
recent back surgery and recovery.
    I share and support your keen enthusiasm for innovation and 
competitiveness. This is an issue that I have tried to work on since 
coming to the U.S. Senate. Working with the Council on Competitive and 
the Majority Leader, Senator Frist, we created a bipartisan Forum on 
Technology and Innovation to help encourage thoughtful dialogue on 
technology from 1999 to 2002. Now, many strong voices are contributing 
to this essential debate which is very encouraging.
    There are many ways to promote innovation, and basic investment in 
math and science, but the fundamental component to build the foundation 
is quality teachers. While I welcome new ideas and new incentives, we 
should also review and support the investments in ongoing programs that 
support innovation and education. One example is the National Science 
Foundation's Math and Science Partnership program. These partnerships 
are reporting real, measurable gains in math and science education at 
all levels. A report released earlier this year, indicated that the 
Math and Science Partnerships reported a 7 percent increase in 
proficiency in participating elementary schools. Even more promising, 
the partnerships reported a 14 percent increase in some of the 
participating high schools. This is stunning and it deserves to be 
continued and expanded.
    Another small, but effective program is the National Science 
Foundation's Experimental Program to Stimulate Competitive Research 
(EPSCoR) which helps the 25 smaller, under-served states become more 
competitive. Investing in these states is vital. While the EPSCoR 
states currently only receive about 10 percent of all National Science 
Foundation funding, these states have about 20 percent of our 
population, 25 percent of all doctoral and research universities, and 
18 percent of the employed academic scientists and engineers. EPSCoR is 
a solid long-term investment in our future scientists and engineers who 
will lead on competitiveness and innovation, and be the role models in 
their communities and schools.
    This Subcommittee hearing provides a good review of some selected 
programs with promise. In addition to the testimony of Dr. Mary Ann 
Rankin of the University of Texas at Austin, I am delighted to share 
information with my colleagues about the West Virginia University's 
Benedum Collaborative. This partnership was created in 1989, and it 
provides a 5-year program for students to begin clinical work at a 
local school after their sophomore year in college. Under the program, 
students have over 1,000 hours of clinical experience and graduate with 
a bachelor's degree in a content area, such as math or science, and a 
master's in education with a recommendation for state certification. 
Studies indicate that students in professional development schools tend 
to score higher on standardized assessments.
    Today's hearing is an important step in our discussion of ways to 
promote math and science education as a way to develop competitiveness 
and innovation.
                                 ______
                                 
           Prepared Statement of Project Lead the Way (PLTW)

    Project Lead the Way is pleased to provide this testimony on behalf 
of the organization as well as the schools, universities and corporate 
partners that participate in Project Lead the Way nationwide (see 
appendix), the thousands of educators who have gone through our 
professional development program and the 175,000 young people who have 
been affected by our efforts.
Background
    Project Lead The Way (PLTW), a non-profit program supported by 
private partnerships and foundations, has developed a four-year 
sequence of courses which, when combined with appropriate mathematics 
and science courses in middle and high school, introduces students to 
the scope, rigor and discipline of engineering and technology prior to 
entering college. The program is funded locally using a variety of 
private and public resources and also relies on public-private 
partnerships.
    PLTW shares the interest of this panel and countless other public 
officials who are attempting to address the issues surrounding the 
Nation's concern regarding global competitiveness. We firmly believe 
that a better-educated and prepared workforce is crucial to securing 
this Nation's place as a global economic leader and innovator. It is an 
issue that PLTW's founder, the Charitable Leadership Foundation of 
Clifton Park, New York, has been attempting to address since 1996 with 
the creation and proliferation of a not-for-profit pre-engineering 
program for our Nation's high schools and middle schools. Started with 
the humble goal of being in 50 high schools in upstate New York by 
2005, the program is currently found in over 1,300 schools in 45 
states.
Beliefs
    While PLTW believes that its curriculum and program are exemplary, 
there are a number of fundamental assumptions that belie its 
formulation and success. First and foremost, PLTW believes that success 
in the science, technology, engineering and mathematics (STEM) 
disciplines begins the moment a child walks into a classroom for the 
first time. It is crucial that any Federal endeavor in this area 
address this fact. It is not enough to engage young people in middle 
and high school. Interest in these studies must be nurtured from day 
one. In particular, girls and other underrepresented groups must find 
STEM appealing at a young age if we can reasonably expect them to 
pursue them successfully in later years. So, while secondary education 
is where one might intuitively look to focus on postsecondary 
preparedness for the pursuit of STEM disciplines, PLTW believes it is 
important that elementary students receive similar focus.
    Further, PLTW's rigorous and relevant curriculum is based on the 
premise that bringing engineering curriculum and concepts to students 
through practical application while they are still forming opinions 
about interests and careers is crucial. No one can deny that these 
interests are formed at a very early age. As a result, it is important 
that young people are exposed to curricula that go beyond math, science 
and technology, and educators are explicitly encouraged to include 
engineering in elementary education.
    The success of PLTW can largely be attributed to its reliance on 
project-based learning and the program strongly advocates for the use 
of project-based learning. Engineering is a field and profession based 
on the success of projects, and this should be reflected in any measure 
of an engineering curriculum's success.
Recognition and Elements of PLTW's Success
    In October 2005, Project Lead The Way was cited in the report 
Rising Above the Gathering Storm: Energizing and Employing America for 
a Brighter Educational Future by the National Academy of Sciences, The 
National Academy of Engineering, and the Institute of Medicine of the 
National Academies. Among the report's recommendations was that K-12 
curriculum materials for science, technology, engineering and 
mathematics (STEM) education modeled on world class standards foster 
``high-quality teaching with world class curricula, standards and 
assessments of student learning.'' It further went on to say that ``The 
model for this recommendation is the Project Lead The Way pre-
engineering courseware (page 4).''
    In addition, the report noted, ``Students participating in PLTW 
courses are better prepared for college engineering programs (page 5-
15).''
    PLTW is understandably proud of this distinction. It does beg a 
number of questions, however.
    Why has the program grown so quickly and what has been its 
effectiveness?
    The answers to these questions are grounded in the attributes of 
the program's organization, and in its curriculum and professional 
development.
    Partnership--The mission of Project Lead The Way is simply to 
``create dynamic partnerships with our Nation's schools to prepare an 
increasing and more diverse group of students to be successful in 
engineering and engineering technology programs.'' Partnerships with 
state departments of education and labor, colleges and universities of 
engineering and engineering technology, and major industries and 
corporations (see attached listings) have been reached to validate and 
support the program throughout the country. Local, state and regional 
ownership of the program with the engaged collaboration and support 
from the national Project Lead The Way program has created a vibrant 
and responsive network of stakeholders that keeps the initiative 
vitally active and strong.
    Curriculum--As has been repeated countless times on Capitol Hill, 
curricula needs to be rigorous and relevant to meet the interests and 
expectations of today's students. PLTW agrees. The attributes of the 
program curricula that have contributed to Project Lead The Way's 
success are:

  <bullet> Contextual project/problem based instruction.

  <bullet> Integration of recognized national learning standards 
        including those of the National Academy of Sciences, The 
        National Council of Teachers of Mathematics and the 
        International Technology Education Association.

  <bullet> Breadth and depth of content, updated and revised regularly.

  <bullet> Supported by comprehensive professional development for 
        teachers and school counselors.

  <bullet> Prepares students for successful transition to 2- and 4-year 
        college programs.

  <bullet> Written to standards of quality and consistency so as to 
        carry college credit that is recognized by over 30 post-
        secondary engineering and engineering technology schools 
        nationwide.

    Professional Development--Rigorous, relevant professional 
development for teachers, presented in immersed and ongoing formats, is 
essential to breed and assure student success. The attributes of the 
Project Lead The Way professional development program are:

  <bullet> Pre-Training Teacher Assessment.

  <bullet> Two-week Summer Training Institute required for each course 
        a teacher might teach (80 hours seat time) at 30 university 
        sites nationwide.

  <bullet> Ongoing teacher training and reinforcement through the 
        Project Lead The Way online Virtual Academy.

  <bullet> Required school counselor professional development at 
        university sites.

    Not-For-Profit Benefits to Schools--As a not-for-profit, Project 
Lead The Way provides at no charge to schools:

  <bullet> Contemporary, rigorous, project/problem-based curricula, 
        updated regularly, for eight (8) full year, high school courses 
        and six (6) middle school units.

  <bullet> Access for trained instructors to the Virtual Academy.

  <bullet> Teacher and counselor professional development protocols for 
        use by university and college partners.

  <bullet> Use of an optional Purchasing Manual, developed under the 
        procedures of the New York State bidding laws, for lowest 
        pricing on all equipment and supplies for all Project Lead The 
        Way courses.

  <bullet> Information and promotional materials for use by school 
        counselors with parents and students.

    Program Evaluation--PLTW believes that unbiased, critical 
examination of its curriculum and program elements is crucial to its 
goals and success. Initial research findings on the effectiveness of 
the Project Lead The Way program include:

    A study by the Southern Regional Education Board (2005) which found 
that Project Lead The Way students:

  <bullet> Achieved significantly higher in mathematics than students 
        in comparable career/technical programs.

  <bullet> Achieved significantly higher than all students in career/
        technical programs in mathematics, science and reading.

  <bullet> Completed significantly more, higher level mathematics and 
        science courses.

    A study by True Outcomes of York, Pennsylvania (2005) showed that:

  <bullet> 80 percent of seniors in Project Lead The Way planned on 
        attending college or community college compared to 65 percent 
        nationwide.

  <bullet> 54 percent planned to enroll in engineering or engineering 
        technology compared to 10 percent nationally.

  <bullet> 19 percent planned on attending community college or 
        Technical School.

  <bullet> Overall schools offering PLTW were representative of their 
        state's population.

  <bullet> Minority student participation met or exceeded the 
        proportion of Bachelor's Degrees awarded in Engineering in 2004 
        to minority students by race.

  <bullet> The representation of Hispanics and African-Americans in 
        PLTW courses was double their representation in post-secondary 
        engineering programs nationwide.

  <bullet> Female student participation in Project Lead The Way was 
        comparable or exceeded the total proportion of females earning 
        Bachelor Degrees in Engineering in 2004, in the fields of 
        Mechanical, Electrical and Computer Engineering, and in 
        Engineering Technology, but less than the percentage in 
        biomedical and environmental fields.

Conclusion
    In 1985, ``A Nation at Risk'' was published alerting the country to 
an impending crisis due to perceived significant inadequacies of the 
existing K-12 education system. Since then these sentiments have been 
echoed in many subsequent research papers, most calling for reform, but 
with no real innovative solutions or recommendations. With few 
exceptions, these reports have instead focused on increasing the 
quantity of more of the same traditional courses and approaches--
approaches that have proven limited in their scope and overall 
effectiveness.
    The latest proposals from Washington do the same: increasing AP 
course participation, expansion of the IB Program, increased foreign 
language instruction, more math at all levels, and more math teachers. 
While well intended and even valiant, the reality is that if these 
proposals move forward, students will continue to ask, ``Why do I need 
to know this?'' and ``Where will I ever use this?'' Raised in an age 
where interactive technology has influenced almost all of their life 
experiences, traditional passive learning models fall far short for the 
majority of today's students. Today's student thrives on curricula that 
are contextual and which invite their engagement in project/problem 
based activity. In short, they do best with school curriculum that is 
BOTH rigorous AND relevant; where they understand why they need to know 
something, and where and how they can use it.
    Don't forget the majority of students in this great country whose 
learning styles and interests are not met in traditional settings and 
coursework. Contextual, project-based learning, where students can 
apply what they have learned in mathematics, science and English 
classes, supported by rigorous and relevant curricula and professional 
development, must be part of the solution that any Federal legislation 
or investment pursues.
                                Appendix
Project Lead The Way Courses
    Gateway To Technology (Middle School)

  <bullet> Design and Modeling
  <bullet> The Magic of Electrons
  <bullet> The Science of Technology
  <bullet> Automation and Robotics
  <bullet> Flight and Space
  <bullet> Technology in Motion (in development)

    Pathway To Engineering (High School)

  <bullet> Principles of Engineering
  <bullet> Introduction to Engineering Design
  <bullet> Digital Electronics
  <bullet> Computer Integrated Manufacturing
  <bullet> Civil Engineering and Architecture
  <bullet> Biotechnical Engineering
  <bullet> Aerospace Engineering
  <bullet> Engineering Design and Development
University Affiliates
    Arkansas Tech University
    Duke University, Pratt School of Engineering.
    Eastern Michigan University
    Milwaukee School of Engineering
    New Hampshire Technical Institute
    Old Dominion University
    Oregon Institute of Technology
    Penn State University
    Purdue University
    Rochester Institute of Technology
    San Diego State University
    Sinclair Community College
    So. Seattle Community College
    University of Colorado at Colorado Springs
    University of Illinois--Urbana
    University of Maryland at Baltimore County
    University of Minnesota
    University of Missouri--Rolla
    University of New Haven
    University of South Carolina
    University of South Florida
    University of Tennessee at Chattanooga
    University of Texas at Tyler
    Weber State University
    Worcester Polytechnic Institute
Strategic Partners
    Autodesk, Inc.
    Intel Corporation
    Kern Family Foundation
    NASA
    Rolls-Royce Corporation
    Southern Regional Education Board
                                 ______
                                 
Scientific and Technical Intelligence Committee, National Intelligence 
                         Council, December 2005

Global Trends in Science and Technology Education: Policy Implications 
   for U.S. National Security and Competitiveness--Executive Summary

Scope Note
    The United States' competitive edge in basic science, research 
advancement and technology development is closely associated with the 
production level and quality of graduate level degrees and advanced 
academic research. \1\ International students have historically played 
an essential role in supplementing U.S. scientific and technical (S&T) 
talent and in funding graduate and post-graduate education and 
research. International students remaining in the United States after 
completing their studies provide a pipeline for S&T research and 
development expertise into the workforce. For the past few decades, the 
United States has led the world in attracting international students 
pursuing S&T graduate degrees and in keeping those who desire to remain 
in the United States to seek careers in S&T-related research and 
development. Recent data, however, indicate a downward trend in foreign 
applications and enrollments at U.S. colleges, universities, and 
research institutions, especially in the science and engineering 
fields.
---------------------------------------------------------------------------
    \1\ At the request of the National Intelligence Council, Oxford 
Analytica is conducting a research effort to evaluate the strengths and 
weaknesses of the national innovation systems of China and India. The 
``quality of scientific and technological human capital'' is one of the 
ten components of a national innovation system that will be evaluated. 
The report is anticipated to be available in the late Spring of 2006.
---------------------------------------------------------------------------
    The Conference on Global Trends in Science and Technology 
Education: Policy Implications for U.S. National Security and 
Competitiveness was organized to facilitate a dialogue, share diverse 
perspectives, and establish a baseline of knowledge regarding worldwide 
trends in international S&T higher education. This conference, which 
took place on June 3, 2005 at the Army-Navy Club in Washington, D.C., 
brought together government policymakers, leaders of non-profit 
institutions, intelligence analysts, industry leaders and professors 
from scientific and engineering disciplines. Their mission was to 
evaluate global trends in S&T graduate/post-graduate programs, and the 
resultant implications for U.S. national ``intellectual'' security and 
competitiveness. The views expressed are those of the non-government 
experts.
Key Findings
Major Trends
    The conferees observed the following trends affecting Global 
Science and Technology Education:

  <bullet> Significant growth in the number of international S&T 
        academic institutions and research centers resulting from 
        globalization

  <bullet> Increased competition for students from foreign academic 
        programs especially from English-speaking countries and 
        regional hosts such as China

  <bullet> Continued perception by foreign students that the United 
        States is ``inhospitable'' after 9/11

  <bullet> Declining proportion of state and Federal S&T investment 
        funding since the 1970s.

Impact on National Security and Competitiveness
    The conferees judged that recent trends are having the following 
impacts on U.S. national security and economic competitiveness:

  <bullet> The majority of attendees believed that the U.S. basic 
        research capability is at risk and will degrade U.S. security 
        and economic competitiveness. A minority argued that global 
        access to information--including technical information--reduces 
        the risk to the United States resulting from a loss of 
        leadership in basic research.

  <bullet> Since new technologies and technical leaders increasingly 
        reside overseas, the majority of attendees judged this would 
        result in increasing U.S. dependency on overseas sources for 
        technology and hence greater security and economic risk. An 
        alternative minority view is that this shift is merely a 
        reflection of cost and market forces and as long as the United 
        States has access to this technology, the United States will 
        receive net benefits.

  <bullet> Conferees were in consensus that U.S. technical 
        superiorities for national defense are eroding.

Candidate Courses of Action
    The conference attendees identified the following candidate courses 
of action to reduce the risk from present trends in international S&T 
education:

  <bullet> Acknowledge that a ``national'' plan and policy such as a 
        National Defense Education Act (NDEA) 21 is needed to stimulate 
        U.S. S&T education and to maintain a healthy S&T 
        infrastructure.

  <bullet> Renew national focus on large-scale collaborative projects 
        in a variety of scientific areas of national importance. 
        Provide funding, public recognition and awards.

  <bullet> Provide more agile technical graduate education. Increase 
        Federal funding for such initiatives as the creation of 
        Master's of Science programs, particularly in emerging 
        technologies. Develop--at all education levels--quality online 
        science and engineering education.

  <bullet> Establish partnerships with foreign education and R&D 
        centers. Establish public-private partnerships within the 
        United States and with multi-national corporations to improve 
        public awareness and access to S&T education.

  <bullet> Change foreign student negative perceptions of U.S. 
        hospitality and educational opportunities through incentives 
        and outreach. Extend Visa Mantis clearance for new scholars 
        beyond two years and relax ``intent to return'' visa provisions 
        for graduate students.

  <bullet> Establish and fund a data collection system that provides 
        more detail about the global flow of international students, 
        academic decision-making and post-graduate career paths.

    The complete report has been retained in Committee files.

                                  <all>

</pre></body></html>
